            Independent Auditor’s Report on USAID’s
            Consolidated Financial Statements, Internal
            Controls, and Compliance for Fiscal Years 2003
            And 2002
            Audit Report No. 0-000-04-001-C
            November 14, 2003




                                            Washington, D. C.
Financial information contained in this report may be privileged. The restriction of 18 USC 1905 should be considered
                                   before any information is released to the public.
This page intentionally left blank.
November 14, 2003


MEMORANDUM
TO:            CFO/FM, Lisa D. Fiely

FROM:          AIG/A, Bruce N. Crandlemire

SUBJECT:       Independent Auditor’s Report on USAID’s Consolidated Financial
               Statements, Internal Controls, and Compliance for Fiscal Years 2003 and
               2002 (Report No. 0-000-04-001-C)

The Office of Inspector General (OIG) is transmitting its report on the audit of the U.S.
Agency for International Development’s (USAID’s) consolidated financial statements,
related internal controls, and compliance with applicable laws and regulations for fiscal
years (FY) 2003 and 2002. Under the Government Management Reform Act of 1994,
USAID is required to prepare consolidated fiscal year-end financial statements. For FY
2003, USAID is required to submit the audited financial statements to the Office of
Management and Budget (OMB) and the U.S. Department of the Treasury (U.S
Treasury) by February 1, 2004. However, because the submission deadline will be
accelerated beginning in FY 2004, USAID opted to meet a November 15 deadline for the
completion of its FY 2003 financial statement audit.

For USAID’s FY 2003 consolidated financial statements, we are pleased to issue
unqualified opinions on all five of USAID’s principal financial statements. This is an
important milestone and represents continued progress by USAID. However, for the
balance sheet and statement of net cost, the opinion was achieved only through extensive
audit efforts to overcome material weaknesses in internal control. Although these efforts
resulted in auditable information on the balance sheet and statement of net cost, they did
not provide information in a timely manner to enable USAID managers to make cost and
budgeting decisions throughout the year.

With respect to internal controls, our report discusses three material weaknesses and five
reportable conditions identified during the audit. The material weaknesses were related
to USAID’s process for (1) assigning strategic objectives to Agency goals, (2) reviewing
quarterly accounts payable and accrued expenses, and (3) recognizing and reporting
accounts receivables.
The reportable conditions address USAID’s need to (1) reconcile fund balance with the
U.S. Treasury, (2) record and classifying advances to grantees and the related expenses,
(3) review, analyze, and deobligate unliquidated obligations, (4) correctly record
periodic allowances to its missions, and (5) improve its system for preparing the
Management’s Discussion and Analysis section of the Performance and Accountability
Report required by the Federal Accounting Standards Advisory Board.

We are reporting that although USAID is not in substantial compliance with the
financial management systems requirements of the Federal Financial Management
Improvement Act of 1996 (FFMIA) and the Debt Collection and Improvement Act of
1996 it is making progress towards becoming substantially compliant.

This report contains four recommendations to improve USAID’s internal controls for
the preparation of its annual financial statement required under the Government
Management Reform Act. (See Appendix III for the status of uncorrected findings and
recommendations from our prior audits that affect the current objectives.)

We have received and considered your response to the draft and the recommendations
included therein (see page 47). Based on your response, we have accepted your comments
as management decisions. Please forward all information to the Office of Management,
Planning, and Innovation for acceptance and final action (See Appendix II for USAID’s
Management Comments).

We appreciate the cooperation and courtesies that your staff extended to the OIG during
the audit. The Office of Inspector General is looking forward to working with you on
the audit of the fiscal year 2004 financial statements (in the mandated accelerated
schedule) and to seeing improved systems and controls.




                                                                                       2
Table of   Summary of Results                                                5
Contents
           Background                                                        7

           Audit Objectives                                                  8

           Did USAID's principal financial statements present fairly
           the assets, liabilities, net position, net costs, change in net
           position, budgetary resources, reconciliation of net costs,
           and budgetary obligations for fiscal years 2003 and 2002?

                           Independent Auditor’s Report on USAID’s
                           Financial Statements                              11

                           Independent Auditor’s Report on Internal
                           Controls                                          15

                           Independent Auditor’s Report on Compliance
                           with Laws and Regulations                         33

           Management Comments and Our Evaluation                            41

           Appendix I - Scope and Methodology                                43

           Appendix II – USAID’s Management Comments                         45

           Appendix III - Status of Uncorrected Findings and
                          Recommendations from Prior Audits That
                          Affect the Current Audit Objectives                49

           Appendix IV - USAID Fiscal Year 2003 Financial
                         Statements and Accompanying Notes                   53
This page intentionally left blank




                                     4
Summary of   Did USAID's principal financial statements present fairly the assets,
Results      liabilities, net position, net costs, change in net position, budgetary resources,
             reconciliation of net costs, and budgetary obligations for fiscal years 2003 and
             2002?

             In our opinion, except for the effects of the inconsistencies in USAID’s allocation
             of expenses on its FY 2002 statement of net cost, USAID’s balance sheet,
             statement of net cost, statement of changes in net position, statement of budgetary
             resources, and statement of financing present fairly, in all material respects, the
             financial position of USAID as of September 30, 2003 and 2002, and its net cost,
             net position, and budgetary resources for the years then ended in conformity with
             generally accepted accounting principles. (See page 11)

             Other Required Supplementary Information

             According to the Federal Accounting Standards Advisory Board, Management’s
             Discussion and Analysis (MD&A) is required supplementary information. We
             did not audit and do not express an opinion on this information. However, we
             have applied certain limited procedures to determine the methods of
             measurement and presentation of the supplementary information. As a result of
             these procedures, we believe that the MD&A departs from prescribed guidelines.
             Specifically, the MD&A did not contain a clear picture of USAID’s planned
             performance for FY 2003. Further, the primary performance information
             indicating the extent to which programs were achieving their objectives was
             based on results achieved in FY 2002. As a result, the MD&A did not
             adequately link costs to results for the current fiscal year.

             Further information on this finding is included in the Report on Internal Controls
             and the Report on Compliance with Laws and Regulations. (See pages 32 and
             37, respectively.)

             Report on Related Internal Controls

             Our audit identified three material internal control weaknesses (see pages 17 to 23)
             and five reportable conditions (see pages 24 to 31) which are included in this
             report.

             The material weaknesses were as follows:

                1. USAID’s methodology for assigning strategic objectives to Agency goals
                   needs improvement.

                2. USAID’s process for reviewing quarterly accounts payable and accrued
                   expenses via its Accrual Reporting System needs improvement.




                                                                                                5
   3. USAID’s process for recognizing and reporting its Accounts Receivable
      needs improvement. (Repeat Finding)

The reportable conditions related to USAID’s need to improve its:

   1. Process for reconciling its Fund Balance with the U.S. Treasury.
      (Previously reported as a material weakness)

   2. Recording and classifying advances to grantees and related expenses.
      (Previously Reported as a Material Weakness)

   3. Process for analyzing and deobligating unliquidated obligations as
      necessary. (Previously reported as a material weakness)

   4. Process for recording periodic allowances to its missions.

   5. System for preparing the Management’s Discussion and Analysis section
      of the Performance and Accountability Report.

Report on Compliance with Laws and Regulations

During fiscal year 2003, USAID's financial management systems did not
substantially comply with the Federal Financial Management Improvement Act of
1996. Specifically, USAID's financial management systems did not substantially
comply with Federal financial management system requirements, Federal
Accounting Standards, and the U.S. Standard General Ledger at the transaction
level. However, USAID has making progress towards becoming compliant. (See
pages 33 to 41)

Our audit also disclosed five instances of noncompliance with laws and regulations
that could have a direct and material effect on the principal financial statements
and required supplementary information. The laws, standards, and regulations
with which USAID did not comply were the:

   •   Federal Financial Management Improvement Act of 1996.

   •   Statements of Federal Financial Accounting Standards.

   •   Computer Security Act of 1987.

   •   Debt Collection and Improvement Act of 1996.

   •   Office of Management and Budget Bulletin No. 01-09.

We considered USAID’s internal control weaknesses and noncompliance with
laws and regulations to determine our auditing procedures for the purpose of
forming our opinion on the financial statements and not to provide assurance on

                                                                                 6
             internal controls and compliance with laws and regulations. We have provided
             additional information in the independent auditor’s report on internal controls (See
             page 15) and compliance (See page 33).

             USAID reported three material weaknesses in its fiscal year 2002 Accountability
             Report and will report three material weaknesses in its fiscal year 2003
             Performance and Accountability Report, which will be issued on November 14,
             2003.


             The United States Agency for International Development (USAID) was created
Background   in 1961 to advance the United States’ foreign policy interests by promoting
             broad-based sustainable development and providing humanitarian assistance.
             USAID has an overseas presence in over 70 countries, 38 of which have
             operational and formal accounting stations. In fiscal year 2003, USAID had
             total obligation authority of about $13 billion.

             Under the Government Management Reform Act of 1994, USAID is required to
             annually submit audited financial statements to the Office of Management and
             Budget (OMB) and the U.S. Treasury. Pursuant to this Act, for FY 2003,
             USAID has prepared the following:

             •   Balance Sheet,
             •   Statement of Net Costs,
             •   Statement of Changes in Net Position,
             •   Statement of Budgetary Resources,
             •   Statement of Financing,
             •   Notes to the financial statements, and
             •   Other accompanying information.




                                                                                                7
Audit Objectives   OMB Bulletin No. 01-02 and related GAO guidance established the minimum
                   audit requirements for Federal financial statements. For fiscal year 2003, this
                   Bulletin required us to:

                      •   Determine whether USAID's principal financial statements present fairly
                          in all material respect, and in conformity with generally accepted
                          accounting principles the assets, liabilities, net position, net costs,
                          changes in net position, budgetary resources, and reconciliation of net
                          costs to budgetary obligations.

                      •   Obtain an understanding of USAID’s internal controls to (1) understand
                          the design of controls relevant to an audit of financial statements and
                          determine whether they have been placed in operation; and (2) assess
                          control risk for the assertions embodied in the classes of transactions,
                          account balances, and disclosure components of the financial statements.

                      •   Obtain an understanding of the components of USAID’s internal controls
                          relating to the existence and completeness assertions relevant to the
                          performance measures included in Management’s Discussion and
                          Analysis (MD&A).

                      •   Report on USAID's compliance with laws and regulations that could have
                          a direct and material effect on the principal statements and any other
                          applicable laws and regulations.

                      •   Report whether USAID’s financial management systems substantially
                          comply with the Federal Financial Management Improvement Act section
                          803(a) requirements.

                   For the first objective, we obtained sufficient evidence concerning material line
                   items on USAID’s fiscal year 2003 financial statements to enable us to form an
                   opinion on those statements.

                   For the second objective, we obtained an understanding of USAID’s internal
                   controls and assessed the control risk for the assertions embodied in the classes
                   of transactions, account balances, and disclosure components of the financial
                   statements.

                   For the third objective, we gained an understanding of the internal controls
                   related to the existence and completeness assertions relevant to the performance
                   measures included in the MD&A.

                   For the fourth and fifth objectives, we determined whether USAID’s financial
                   management systems substantially comply with Federal requirements for
                   financial management systems, applicable Federal accounting standards, and the

                                                                                                  8
U.S. Standard General Ledger at the transaction level, as required by Section
803(a) of the FFMIA of 1996. (See Appendix I for our scope and methodology)

In accordance with the OMB audit requirements for Federal financial statements,
this combined audit report includes our separate reports on USAID’s financial
statements, internal controls, and compliance with applicable laws and
regulations.




                                                                             9
This page intentionally left blank




                                     10
            Independent Auditor’s Report on USAID’s Financial Statements

Auditor’s          Did USAID's principal financial statements present fairly the assets,
Opinion            liabilities, net position, net costs, change in net position, budgetary
                   resources, reconciliation of net costs, and budgetary obligations for fiscal
                   years 2003 and 2002?

                   We have audited the accompanying balance sheet, statement of changes in net
                   position, statement of net cost, statement of budgetary resources, and statement of
                   financing of USAID for the years ended September 30, 2003 and 2002.

                   We conducted our audits in accordance with generally accepted government
                   auditing standards, Government Auditing Standards issued by the Comptroller
                   General of the United States and the Office of Management and Budget (OMB)
                   Bulletin No. 01-02, “Audit Requirements for Federal Financial Statements.”
                   Those standards require that we plan and perform the audit to obtain reasonable
                   assurance about whether the financial statements are free of material
                   misstatement. An audit includes examining, on a test basis, evidence supporting
                   the amounts and disclosures in the financial statements. An audit also includes
                   assessing the accounting principles used and the significant estimates made by
                   management, as well as evaluating the overall financial statement presentation.
                   We believe that our audits provide a reasonable basis for our opinion.

                   In our opinion, except for the effects of the inconsistencies in USAID’s allocation
                   of expenses on its FY 2002 statement of net cost, the financial statements referred
                   to above present fairly, in all material respects, the financial position of USAID as
                   of September 30, 2003 and 2002 and its net costs, net position, and budgetary
                   resources for the years then ended in conformity with generally accepted
                   accounting principles.

                   The financial statements referred to above are the responsibility of USAID’s
                   management. In that regard, USAID’s management is responsible for:

                      1. Preparing the financial statements in conformity with generally accepted
                         accounting principles.

                      2. Establishing, maintaining, and assessing internal controls to provide
                         reasonable assurance that the broad objectives of the Federal Managers’
                         Financial Integrity Act are met.

                     3.   Establishing, maintaining, and ensuring that USAID’s financial
                          management systems comply with Federal Financial Management
                          Improvement Act (FFMIA) requirements.

                      4. Complying with applicable laws and regulations.


                                                                                                      11
The Office of Inspector General is responsible for obtaining reasonable assurance
about whether the financial statements are presented fairly, in all material respects,
in conformity with generally accepted accounting principles. In order to fulfill
these responsibilities, we:

   1. Examined, on a test basis, evidence supporting the amounts and disclosures
      in the financial statements.

   2. Assessed the accounting principles used and significant estimates made by
      management.

   3. Evaluated the overall presentation of the financial statements.

   4. Obtained an understanding of internal control related to financial reporting
      (including safeguarding assets), compliance with laws and regulations
      (including execution of transactions in accordance with budget authority),
      and performance measures reported in Management’s Discussion and
      Analysis of the Performance and Accountability Report.

   5. Tested relevant internal controls over financial reporting and compliance,
      and evaluated the design and operating effectiveness of internal controls.

   6. Considered the process for evaluating and reporting on internal control and
      financial management systems under the Federal Managers’ Financial
      Integrity Act.

   7. Tested whether USAID’s financial management systems substantially
      complied with the three FFMIA requirements.

   8. Tested USAID’s compliance with selected provisions of the following
      laws and regulations:

       •   Anti-Deficiency Act,

       •   Prompt Payment Act,

       •   Debt Collection and Improvement Act, and

       •   Federal Credit Reform Act.

We did not evaluate all internal controls relevant to operating objectives as broadly
defined by the Federal Managers’ Financial Integrity Act, such as those controls
relevant to preparing statistical reports and ensuring efficient operations. Instead,
we limited our internal control testing to controls over financial reporting and
compliance.



                                                                                    12
Nevertheless, because of inherent limitations in internal controls, misstatements
due to error or fraud, losses, or noncompliance may occur and not be detected. We
also caution that projecting our evaluation to future periods is subject to the risk
that controls may become inadequate because of changes in conditions or that the
degree of compliance with controls may deteriorate. In addition, we caution that
our internal control testing may not be sufficient for other purposes. (See the
FFMIA section of Compliance Report on USAID’s FY 2003 financial statements
for additional internal control weaknesses.)

We did not test compliance with all laws and regulations applicable to USAID.
We limited our tests of compliance to those laws and regulations required by OMB
audit guidance that we deemed applicable to the financial statements for the fiscal
year ended September 30, 2003 and 2002. We caution that noncompliance may
occur and not be detected by these tests and that such testing may not be sufficient
for other purposes.

We have also issued reports, dated November 14, 2003, on our consideration of
USAID’s internal controls, and on its compliance with laws and regulations. (See
pages 15 and 33.)

According to the Federal Accounting Standards Advisory Board, Management’s
Discussion and Analysis (MD&A) is required supplementary information.
Although we did not audit and do not express an opinion on this information, we
have applied certain limited procedures to determine the methods of measurement
and presentation of the supplementary information. As a result of these
procedures, we believe that the performance information reported in the MD&A
departs from prescribed guidelines. Specifically, the MD&A did not contain a
clear picture of USAID’s planned performance for FY 2003. Further, the primary
performance information indicating the extent to which programs were achieving
their objectives was based on results achieved in FY 2002. As a result, the MD&A
did not adequately link costs to results for the current fiscal year.

Further information is included in the Report on Internal Controls and the Report
on Compliance with Laws and Regulations. (See pages 30 and 38, respectively.)




Office of Inspector General
November 14, 2003




                                                                                  13
This page intentionally left blank




                                     14
                 Independent Auditor’s Report on Internal Controls

Report on            Did USAID establish adequate internal controls related to its financial
                     statements and the performance measures contained in its Management’s
Internal             Discussion and Analysis section?
Controls and
Audit Findings       We have audited the consolidated financial statements of USAID for the fiscal
                     years ended September 30, 2003 and 2002, and have issued our report thereon.
                     We conducted the audit in accordance with generally accepted auditing standards;
                     the standards applicable to financial audits contained in Government Auditing
                     Standards, issued by the Comptroller General of the United States; and the Office
                     of Management and Budget (OMB) Bulletin No. 01-02, “Audit Requirements for
                     Federal Financial Statements.”

                     In planning and performing our audit, we considered USAID’s internal controls
                     over financial reporting by obtaining an understanding of those controls. We
                     determined whether the internal controls have been placed in operation, assessed
                     control risk, and performed tests of controls to determine our substantive auditing
                     procedures for the purpose of expressing an opinion on the financial statements.
                     We limited the internal control testing to those necessary to achieve the objectives
                     described in OMB Bulletin No. 01-02. We did not test all internal controls
                     relevant to the operating objectives as broadly defined by the Federal Managers’
                     Financial Integrity Act of 1982 (such as those relevant to ensuring efficient
                     operations).

                     The objectives of internal controls are to provide management with reasonable, but
                     not absolute, assurance that the following objectives are met:

                        •   Transactions are properly recorded and accounted for to permit the
                            preparation of reliable financial reports and to maintain accountability
                            over assets.

                        •   Funds, property, and other assets are safeguarded against loss from
                            unauthorized acquisition, use, or disposition.

                        •   Transactions that have a material impact on the financial statements,
                            including those related to obligations and costs are executed in
                            compliance with laws and regulations.

                     The objective of our audit was not to provide assurance on internal controls;
                     consequently, we do not provide an opinion on those controls.




                                                                                                       15
Our consideration of the internal controls over USAID’s financial reporting would
not necessarily disclose all matters that might be reportable conditions. Under
standards issued by the American Institute of Certified Public Accountants,
reportable conditions are matters coming to our attention relating to significant
deficiencies in the design or operation of the internal controls that, in our
judgment, could adversely affect USAID’s ability to record, process, summarize,
and report financial data consistent with the assertions by management in the
financial statements. Material weaknesses, on the other hand, are reportable
conditions in which the design or operation of one or more of the internal control
components does not reduce, to a relatively low level, the risk that misstatements
in amounts that would be material in relation to the financial statement being
audited may occur and not be detected within a timely period by employees in the
normal course of performing their assigned functions.

Because of inherent limitations in internal controls, misstatements, losses, or
noncompliance may occur and not be detected. However, we noted certain
matters, discussed in the following paragraphs and accompanying schedules,
involving the internal controls and their operation that we consider to be either
material weaknesses or reportable conditions, including such weaknesses or
conditions noted in prior Government Management and Reform Act (GMRA)
audit reports. Our Report on Compliance with Laws and Regulations (see Page
33) identifies additional internal control weaknesses affecting USAID’s overall
compliance with applicable laws and regulations. The material internal control
weaknesses are as follows:

   1. USAID’s methodology for assigning strategic objectives to Agency goals
      needs improvement.

   2. USAID’s process for reviewing quarterly accounts payable and accrued
      expenses via its Accrual Reporting System needs improvement.

   3. USAID’s process for recognizing and reporting Its Accounts Receivable
      needs improvement (Repeat Finding).

The reportable conditions related to USAID’s need to improve its:

   1. Process for reconciling its Fund Balance with the U.S. Treasury
      (Previously reported as a material weakness).

   2. Recording and classifying of advances to grantees and related expenses
      (Previously reported as a material weakness).

   3. Process for analyzing and deobligating unliquidated obligations as
      necessary (Previously reported as a material weakness).

   4. Process for recording periodic allowances to its missions.



                                                                                16
   5. System for preparing the Management’s Discussion and Analysis
      Section of the Performance and Accountability Report.

Material Weaknesses

USAID’s Methodology for Assigning Strategic Objectives to Agency Goals
Needs Improvement

USAID’s system for ensuring that expenses are correctly assigned to each of its six
Agency goals needs improvement. Under the current system, USAID has limited
assurance that its strategic objectives are being correctly assigned to each of the six
Agency goals. This problem occurred because USAID’s controls over the process
used to map strategic objectives to the Agency goals are ineffective and its Office
of Financial Management was not involved in the process of ensuring the reliability
of the assignments. As a result, the expenses reported on USAID’s Consolidated
Statement of Net Cost cannot be relied without significant adjustments resulting
from the audit process. At our request, USAID subsequently reallocated $2.1
billion of expenses on its Consolidated Statement of Net Cost to present more
reliable expense information associated with its six Agency goals.

Statement of Federal Financial Accounting Standard (SFFAS) No. 4 requires
Federal agencies to accumulate and report the costs of its activities on a regular and
consistent basis for management information purposes. SFFAS states that reliable
information on the costs of Federal programs and activities are crucial for effective
management of government operations. The information supplied to internal and
external users should be reliable and useful in making evaluations or decisions.

USAID uses a system known as the Annual Report Database to map its strategic
objectives to the following six Agency goals:

   1. Encourage Broad-based Economic Growth and Agricultural Development.

   2. Build Human Capacity Through Education and Training.

   3. Protect the Environment for Long-Term Stability.

   4. Stabilize World Population and Protect Human Health.

   5. Strengthen Democracy and Good Governance.

   6. Promote Humanitarian Assistance.

The Annual Report Database is a decentralized list of strategic objectives mapped
to corresponding Agency goals and monitored by USAID’s Bureau for Policy and
Program Coordination (PPC). To populate the Annual Report Database, at the
beginning of every fiscal year, PPC relies on offices within each of USAID’s



                                                                                    17
                         central and regional Bureaus1 to correctly assign individual strategic objectives to
                         corresponding Agency goals. At the end of the fiscal year, USAID’s Office of
                         Financial Management uses the Annual Report Database to summarize the total
                         expenses for each strategic objective to the corresponding Agency goal. These
                         expenses are then reported on USAID’s Consolidated Statement of Net Cost.

                         The Annual Report Database is the primary link between the information in
                         USAID’s general ledger and its Consolidated Statement of Net Cost. However, our
                         review of the Annual Report Database found that:

                             •   PPC does not require USAID Bureau officials to certify that its strategic
                                 objectives-to-goal assignments are reliable.

                             •   Some strategic objectives that impact several Agency goals are being
                                 mapped to only one Agency goal.

                             •   Some existing strategic objectives are not mapped to any of USAID’s six
                                 goals. Automated Directives System (ADS) 201.3.7.1 requires that a
                                 strategic objective must link to one principal Agency goal, one principal
                                 Agency objective, and one Agency Pillar as defined in the most current
                                 Agency Strategic Plan.

                         The Office of Inspector General determined that different offices within USAID
                         have different interpretations of how strategic objectives should be assigned to
                         Agency goals, and we identified:

                             •   3 strategic objectives valued at about $1.3 billion where the attribution
                                 could be questioned.

                             •   11 strategic objectives valued at about $55 million that were assigned to
                                 only one Agency goal but should have been allocated to several.

                             •   43 strategic objectives valued at about $798 million that were not assigned
                                 to any Agency goal.

                         As a result of the OIG determinations, USAID subsequently made a manual
                         adjustment to its Annual Reporting Database to present more reliable amounts on
                         its Consolidated Statement of Net Cost.

                         The above system deficiencies exist at USAID because the assignments of strategic
                         objectives to Agency goals, although approved by PPC, are actually performed by
                         the individual USAID Bureaus without adequate guidance or oversight. This

1
         USAID is comprised of the central and regional bureaus. The central bureaus are: Democracy, Conflict and
Humanitarian Assistance; Economic Growth, Agriculture and Trade; Global Health; Legislative and Public Affairs;
Management; and Policy and Program Coordination. The regional bureaus are: Africa; Asia and Near East; Europe and
Eurasia; and Latin America and the Caribbean.

                                                                                                                    18
occurred because PPC believes that the mapping of strategic objectives requires
specific knowledge of program implementation, which is primarily held within the
operating units and strategic objective teams.

Bureau officials forward the strategic objective assignments to the PPC, who
approve them without questioning the assignments and without obtaining
certifications from Bureau officials that the assignments are accurate. In addition,
despite its financial reporting responsibilities for the Statement of Net Cost,
USAID’s Office of Financial Management does not monitor PPC’s process to
ensure that the information provided is reliable.

Because of the deficiencies in USAID’s process for properly reporting expenses
against the Agency goals on its Consolidated Statement of Net Cost, we are
including the following recommendations to USAID management:

       Recommendation No 1: We recommend that USAID’s Chief
       Financial Officer coordinate with the Bureau for Policy,
       Planning and Coordination to:

       1.1.    Obtain annual certifications from responsible offices
               showing that their strategic objectives are properly
               assigned to the appropriate Agency goals.

       1.2     Implement Automated Directives System 201.3.7.1 by
               requiring that all strategic objectives be assigned to an
               Agency goal.

       1.3.    Develop separate allocation methodologies for strategic
               objectives that must be allocated to more than one
               Agency goal.




                                                                                 19
                         USAID’s Process for Reviewing Quarterly Accounts Payable and Accrued
                         Expenses via Its Accrual Reporting System Needs Improvement.

                         USAID’s methodology for estimating its accounts payable and accrued expenses
                         using Cognizant Technical Officer (CTO) reviews of information contained in
                         the Accrual Reporting System,2 and the supervision of the results of this
                         exercise, have not worked effectively. This occurred because:

                              •   Financial information generated by the Accrual Reporting System is
                                  often unreliable.

                              •   CTO information maintained in the Accrual Reporting System is
                                  unreliable.

                              •   USAID has not used all available information to monitor the credibility
                                  of the information that is either accepted or reviewed within Accrual
                                  Reporting System.

                              •   USAID’s Office of Financial Management is not statistically reviewing
                                  the accuracy of accrual modifications.

                              •   Support for recorded accruals is held with as many as 600 individuals
                                  every quarter, making the system extremely difficult to audit.

                         Statement of Federal Financial Accounting Standards No.1, paragraph 77
                         requires that, when an entity accepts goods (or services), it should recognize a
                         liability for the unpaid amount of these goods or services. If applicable invoices
                         are not available when financial statements are prepared, then the amounts owed
                         should be estimated. USAID estimates its accounts payable using its Accrual
                         Reporting System.

                         As a result of revised Accrual Reporting System estimates proposed by the OIG,
                         USAID reduced yearend accrued expenses and accounts payable by about $244
                         million to more accurately reflect the activity in accounts impacted by accruals.

                         USAID’s accrual methodology uses the Accrual Reporting System to develop
                         quarterly estimates of accrued expenses recorded against individual contract and
                         grant awards. These estimates are reviewed and certified by Cognizant
                         Technical Officers (CTOs). Of the $1.33 billion in accrued expenses estimated
                         by the Accrual Reporting System as of September 30, 2003, about $650 million
                         were adjusted deliberately as a result of CTO reviews of unliquidated obligations
                         recorded in USAID’s Accrual Reporting System . However, the remainder,


2
       The Accrual Reporting System gathers obligation and contract information from USAID’s Financial Management
and Acquisition and Assistance system, and uses this data to calculate estimated quarterly expenses against individual
USAID contracts, grants, or obligation line items.

                                                                                                                    20
about $680 million represented system-generated estimates of accrued expenses
against yearend unliquidated obligations.

Because the system-generated estimates of accrued expenses are calculated by
the Accrual Reporting System on a straight-line basis using the unliquidated
obligation balances for the remaining performance period of the individual
awards, USAID has no assurance that these system-generated estimates are
reliable or that the system-generated portion of accrued expenses is supported by
an adequate accrual methodology. Although USAID Office of Financial
Management officials have suggested that eliminating system-generated
estimates might cause CTOs to review their accruals more closely, it could also
cause USAID’s accounts payable to be materially understated, which would
require a potentially large and imprecise adjustment.

At the end of every quarter, USAID provides, via the Accrual Reporting System,
its estimates of expenses recorded against related obligations to CTOs who are
responsible for the individual obligations. The CTO names included in the
Accrual Reporting System are derived from USAID’s existing procurement
system – a module of USAID’s New Management System - which identifies a
CTO for each recorded obligation. However, many of the CTOs identified by
this system and, subsequently, by the Accrual Reporting System were not the
CTOs responsible for the corresponding obligations. USAID’s Office of
Financial Management believes that its CTO information will be more reliable
when a procurement module is acquired and integrated with its current financial
management system.

Under the current Accrual Reporting System, CTOs are not accountable to a
single authority with the responsibility for monitoring the accruals process.
Instead, CTOs are located in USAID’s individual bureaus and report to the
management of those individual bureaus. Also, USAID’s Office of Financial
Management does not compile or maintain statistics on periodic accruals to
show:

   •   How often recorded accruals were adjusted by CTOs.

   •   The adjustments made by each bureau.

   •   The number and value of straight-line accruals accepted by CTOs.

   •   Whether or not CTOs are actually reviewing quarterly accruals.

At the beginning of every quarter, CTOs must log into the Accrual Reporting
System and certify that the recorded accrual amounts in the system were the
most reliable representation of expenses for the previous quarter. However, this
quarterly certification process only provides assurance that CTOs have checked
off an electronic certification box and does not provide information on the level
of review performed for each accrual. Although evidence of these reviews is

                                                                              21
required to be maintained by the individual CTOs, the required documentation
was often either missing or inadequate. USAID subsequently made a $243
million adjustment to reduce its accounts payable and expenses to present more
reliable yearend balances.

USAID’s Office of Financial Management does compile statistics on whether or
not CTOs are reviewing quarterly accruals and has issued guidance to CTOs on
how to review accruals. Nevertheless, USAID has no assurance that all CTOs
understand the issued guidance, nor is it clear to whom the CTOs are accountable
if they do not follow the guidance. USAID’s Office of Financial Management
also interviews between 30 and 40 CTOs to determine the accuracy of their
accrual modifications but this sample is not large enough to verify the accuracy
of the quarterly accruals.

Because of the inadequacies in USAID’s Accrual Reporting System and in the
CTO information used to calculate and report on accounts payable and expenses
in its financial statements, we are making the following recommendations to
USAID management:

       Recommendation No 2: We recommend that USAID’s Chief
       Financial Officer:

       2.1.   Establish and implement procedures to obtain updated
              Cognizant Technical Officer information whenever
              personnel changes affect the information recorded in
              the Accrual Reporting System.

       2.2.   Establish and implement procedures to evaluate the
              reliability of the Accrual Reporting System by
              performing quarterly reviews using valid statistical
              analysis techniques.

       2.3.   Establish and implement procedures to compile and
              maintain quarterly analytical information on the
              number and amount of modified and system-generated
              accruals certified in the Accrual Reporting System by
              USAID’s Cognizant Technical Officers - by individual
              USAID Bureau - to assist in planning follow-up reviews
              of Accrual Reporting System information.




                                                                             22
                         USAID’s Process for Recognizing and Reporting Its Accounts Receivable
                         Needs Improvement (Repeat Finding)

                         As of September 30, 2003, USAID continues to lack an integrated financial
                         management system with the ability to account for its worldwide accounts
                         receivable. This internal control weakness was reported in a previous audit
                         report3. Because this systemic weakness continues to exist, we have included it as
                         a material weakness in this report. Because USAID lacks a worldwide integrated
                         system and has not effectively implemented policies and procedures for its
                         missions and its Office of Procurement to immediately recognize accounts
                         receivable, USAID had to rely on the web-based data collection tool to determine
                         the year-end accounts receivable balances. Therefore, USAID has no complete
                         assurance that the amount reported for accounts receivable in its fiscal year 2003
                         financial statements represents all receivables due to USAID.

                         SFFAS No. 1, paragraphs 40 to 52, “Accounts Receivables,” requires the
                         recognition (recording) of accounts receivable when a claim to cash or other assets
                         has been established. The establishment of accounts receivable cannot occur on a
                         timely basis unless there are adequate procedures in place for recognizing and
                         reporting them at the end of each accounting period.

                         Currently, USAID records accounts receivable after the missions and the Office of
                         Procurement notify the Office of Financial Management that employees, vendors,
                         contractors, and grantees owe funds to USAID. We determined that accounts
                         receivable within the Office of Financial Management were outstanding in a range
                         of 7 to 1,101 days.

                         We identified similar findings in a previous report4 and made recommendations
                         for corrective actions by USAID management. USAID has taken final action on
                         last year’s recommendation by issuing policies and procedures for the immediate
                         recognition and reporting of all accounts receivable. USAID is still in the
                         process of implementing the new procedures; therefore, we are not including
                         additional recommendations in this audit report. However, we will continue to
                         monitor USAID’s progress in implementing the recommended corrective
                         actions.




3
        Report on USAID’s Consolidated Financial Statement, Internal Controls and Compliance for Fiscal Year 2002.
Report No. 0-000-03-001-C, dated January 24, 2003.
4
        Report on USAID’s Consolidated Financial Statement, Internal Controls and Compliance for Fiscal Year 2002.
Report No. 0-000-03-001-C, dated January 24, 2003.

                                                                                                                     23
                         Reportable Conditions

                         USAID’s Process for Reconciling Its Fund Balance with the U.S. Treasury
                         Needs Improvement (Previously Reported as a Material Weakness)

                         The OIG determined that USAID’s internal controls over its fund balance
                         reconciliation process needs improvement. While USAID has improved its
                         reporting of monthly and cumulative fund balance differences with the U.S.
                         Treasury, we identified several problems that continue to hinder USAID’s ability
                         to reconcile differences with its fund balance. Specifically, USAID’s overseas
                         missions did not consistently reconcile, research, and resolve differences
                         identified between its records, the State Department’s U.S. Disbursement Offices
                         records, and U.S. Treasury records. USAID missions continue to have large
                         unreconciled balances because they have not been able to implement procedures
                         to reconcile items quickly. Additionally, accounting stations responsible for
                         several client missions do not consistently receive documentation to support
                         unreconciled transactions.

                         As a result, in fiscal year 2003, USAID’s Office of Financial Management made
                         unsupported adjustments of about $35 million net ($201 million in absolute
                         dollar value) to bring its cash balance in agreement with the U.S. Treasury’s
                         balance. This is an improvement over the $45 million net ($203 million in
                         absolute dollar value) that was reported last year. According to USAID’s Office
                         of Financial Management officials, this adjustment was made because it is
                         necessary for USAID to bring its fund balance in agreement with the U.S.
                         Treasury for the yearend closing statement and the annual financial statement.

                         The U.S. Department of Treasury’s guidance5 for reconciling fund balances
                         requires that Federal agencies research and resolve differences reported by the
                         U.S. Treasury on a monthly basis. Agencies must also resolve all differences
                         between the balances reported in their general ledger fund balance with the U.S.
                         Treasury accounts and the balances reported by the U.S. Treasury. This
                         guidance stipulates three months as a reasonable period for clearing the
                         differences.

                         The reconciliation process contains two steps: (1) identifying the differences
                         between USAID’s records and the U.S. Department of Treasury’s records and
                         (2) researching and resolving these differences. Some of the differences are
                         timing differences that will eventually be eliminated, while other differences are
                         accounting and posting errors that must be corrected. The U.S. Treasury
                         reconciliation procedures state that an agency may not arbitrarily adjust its fund
                         balance with the U.S. Treasury account. The procedures further state that an
                         agency can adjust its fund balance with the U.S. Treasury account balance only

5
        Fund Balance with Treasury Reconciliation Procedures, A Supplement to the Treasury Financial Manual, ITFM 2-
5100, August 1999.


                                                                                                                  24
                         after clearly establishing the causes for any errors and properly correcting those
                         errors. In addition, the procedures state that an agency should document “month
                         cleared” (the accounting month that the discrepancy was adjusted), accounting
                         periods, required explanations, and brief narratives that disclose the cause of the
                         discrepancy. USAID did not consistently follow the first and second steps of the
                         reconciliation process but did adjust its fund balance with the U.S. Treasury
                         account.

                         In FY 2003, USAID implemented a new reporting system that will be used to
                         determine its missions’ reconciling items at the end of each accounting period.
                         We will be evaluating the effectiveness of this new reporting system during
                         upcoming audits.

                         We identified similar reconciliation findings in a previous audit report6 and made
                         recommendations for corrective action by USAID management. As of
                         September 30, 2003, USAID has not taken final action to implement those
                         recommendations. Therefore, we are not including additional recommendations
                         in this audit report. However, because USAID continues to record unsupported
                         adjustments to its year-end fund balance to bring this account balance in
                         agreement with the U.S. Treasury, we are including the following
                         recommendation to USAID management:

                                 Recommendation No. 3: We recommend that the Chief
                                 Financial Officer require the Office of Financial Management
                                 to develop and implement specific procedures for its overseas
                                 missions to reconcile USAID’s fund balance accounts with the
                                 U.S. Treasury account.

                         USAID’s Process for Reconciling and Classifying Advances to Grantees
                         Needs Improvement (Previously Reported as a Material Weakness)

                         USAID’s process for recording and classifying advances to grantees needs
                         improvement. USAID’s Office of Financial Management has no means of
                         identifying all obligations established for funding advances to grantees and, as of
                         September 30, 2003, had not recorded about $30 million in expenses related to
                         advance liquidations incurred by grantees. Progress has been made in this area
                         because our FY 2002 GMRA audit identified about $88 million in expenses
                         related to advances that were not recorded by USAID. However, this condition
                         continues to occur because

                         USAID does not have a worldwide integrated financial management system that
                         includes procurement and assistance data. Therefore, obligations established for
                         advances that are managed by the Department of Health and Human Services

6
        Report on USAID’s Consolidated Financial Statement, Internal Controls, and Compliance for Fiscal Year 2002.
Report No. 0-000-03-001-C, dated January 24, 2003.


                                                                                                                      25
                          must be manually entered into the Payment Management System.7
                          Consequently, the obligations related to the $30 million had not been entered
                          into the PMS and the expenses were not recognized and reported by the
                          Department of Health and Human Services. As a result of our audit, USAID
                          subsequently made an adjustment to record the $30 million as expenses.

                          General Accounting Office (GAO) “Standards for Internal Controls in the Federal
                          Government” require that transactions and other significant events should be
                          promptly recorded and properly classified. This guidance further states that
                          transactions must be promptly recorded if pertinent information is to maintain its
                          relevance and value to management in controlling operations and making
                          decisions. This applies to:

                               •   The entire process or life cycle of a transaction or event and includes the
                                   initiation and authorization.

                               •   All aspects of the transactions while in process.

                               •   Its final classification in summary records.

                          In addition, obligations for grant agreements and/or modifications must be
                          entered into Department of Health and Human Services’ Payment Management
                          System so that grantees can report advance liquidation expenses related to the
                          corresponding obligations. As of September 30, 2003, USAID had not recorded
                          in the Payment Management System approximately 39 grant agreements and/or
                          modifications with a net value of about $66 million. USAID has since recorded
                          19 of the 39 grant agreements and/or modifications valued at $39 million.
                          Therefore, at the time of our review, USAID still had about $27 million not
                          recorded in the Payment Management System.

                          This occurred because USAID does not have a worldwide integrated financial
                          management system that links its accounting, procurement, and assistance data,
                          as well as all other activities performed by USAID. Although USAID
                          established and implemented procedures for new grants and/or modifications to
                          be sent to its Office of Financial Management, some grant officers were not
                          following the established procedures. Therefore, copies of new grants and/or
                          modifications issued by USAID’s Office of Procurement were still not submitted
                          to the Office of Financial Management in a timely manner. USAID has made
                          significant progress in this area and will continue to show progress and a
                          strengthening of the internal controls over its advance process after the
                          implementation of a worldwide financial management system that links its
                          accounting, procurement, and assistance data.
7
         The Payment Management System was developed to establish a central point capable of paying most Federal
Assistance grants, contracts, and block grants. The main purpose of this system is to serve as a fiscal intermediary between
awarding agencies and the recipients of grants and contracts, with particular emphasis on: (1) expediting the flow of cash
between the Federal Government and recipients; (2) transmitting recipient disbursement data back to the awarding agencies;
and (3) managing cash advances to recipients.

                                                                                                                         26
                         We identified similar findings in a previous audit report8 and made
                         recommendations for corrective actions by USAID management. As of
                         September 30, 2003, USAID has taken final action by implementing the
                         recommendations to eliminate existing backlogs and establishing mandatory
                         procedures for the prompt recording of grant documents and data within its
                         Office of Financial Management and Office of Procurement. We will continue
                         to monitor USAID’s progress in implementing the recommended corrective
                         actions.

                         Unliquidated Obligations Were Not Always Analyzed and Deobligated as
                         Necessary (Previously Reported as a Material Weakness)

                         USAID records showed that unliquidated obligations that may no longer be needed
                         for their original obligation purpose were not deobligated as necessary. This
                         occurred because USAID has not:

                             •    Established better reporting capabilities, effectively implemented the new
                                  quarterly accrual process, nor improved its pipeline management to
                                  conduct the careful review needed to identify the amount of unliquidated
                                  obligations that are no longer needed.

                             •    Dedicated the required resources to specifically target the review and
                                  deobligation of unneeded funds.

                         As a result, as of September 30, 2003, about $119 million in unliquidated
                         obligations that had no payment activity against them for more than one year still
                         remained. More that 56 percent of the $119 million is over the $100,000 threshold
                         established by USAID for periodic reviews and deobligation as necessary. The
                         $119 million is a decrease from the $153 million in unliquidated obligations that
                         our FY 2002 GMRA audit identified. The $119 million in unliquidated
                         obligations, identified by our FY 2003 GMRA audit, may no longer be needed for
                         their original obligation purposes.

                         USAID’s Automated Directives System (ADS) 621.3.15, Annual Certification of
                         unexpended balances, states, “As part of the annual budget process, Assistant
                         Administrators, independent office directors, and mission directors must certify
                         whether unexpended balances are necessary for on-going programs.” The
                         directive further requires that in conducting reviews of obligations to identify
                         funds that must be deobligated, obligation managers and others involved in the
                         review process should consider circumstances that could result in excessive or
                         unneeded obligation balances. According to ADS 621.3.13, where there is an
                         unobligated balance that has remained unchanged for 12 months or more and there


8
        Report on USAID’s Consolidated Financial Statement, Internal Controls, and Compliance for Fiscal Year 2002.
Report No. 0-000-03-001-C, dated January 24, 2003.

                                                                                                                      27
is no evidence of receipt of services and/or goods during that same 12-month
period, the remaining balances may no longer be needed.

In FY 2002, USAID’s Business Transformation Executive Committee working
group reviewed 576 awards with performance periods ending on or before
September 30, 2000, and having unliquidated obligation balances of $100,000 or
more. As a result of the group’s review, USAID deobligated about $100 million
of the reported unliquidated obligations related to the 576 awards. However,
because USAID has not fully institutionalized business processes and policy and
procedural improvements, many other unliquidated obligations may be available
for deobligation.

In FY 2002, USAID implemented an Accrual Reporting System to require review
and approval of system-generated expenses based on recorded unliquidated
obligations. If this system is maintained as intended, it should enable USAID to
routinely identify obligations that could be deobligated. Recommendation No. 2
addresses the deficiencies identified within the Accrual Reporting System.
Because USAID has not fully institutionalized business processes and policy and
procedural improvements, and the benefits of the Accrual Reporting System have
not been achieved, we are including the following recommendation for corrective
action to USAID management.

       Recommendation No. 4: We recommend that the USAID Chief
       Financial Officer:

       4.1    Issue revised and expanded policy and procedural
              guidance for the careful reviews needed to identify the
              amount of unliquidated obligations that are no longer
              needed.

       4.2    Review the lists of unliquidated obligations totaling $119
              million identified in this report and make a
              determination regarding the deobligation of those funds.




                                                                              28
USAID’s Process for Recording Periodic Allowances to Its Missions Needs
Improvement

In FY 2003, USAID made cumulative allotments to its missions before related
allowances were recorded in the financial management system. The OIG
determined that these allotments included about $25 million in the Asia Near East
Bureau; $84 thousand in the Latin America Caribbean Bureau for the Child
Survival & Disease Prevention Program appropriation; and about $176 thousand in
the Africa Bureau for the Operating Expenses appropriation. (See table 1 below)

Allotments Made Before Recorded Allowances

 Bureau            Appropriation            Country         Amount
                   Child Survival &
 Asia Near East    Disease Prevention       Indonesia           $9,000,000
                   Child Survival &
 Asia Near East    Disease Prevention       Bangladesh         $15,670,000
                   Child Survival &
 Asia Near East    Disease Prevention       Philippines            $34,494
 Latin America     Child Survival &
 Caribbean         Disease Prevention       Peru                   $83,758
 Africa            Operating Expense        Ghana                  $23,485
 Africa            Operating Expense        Mali                    $9,689
 Africa            Operating Expense        Senegal                $87,054
                   Total                                       $24,908,480
Table 1

According to USAID’s Automated Directives System, 634.3.4, funds control
violations may be either statutory or administrative. A statutory violation may
result in disciplinary and/or criminal penalties. An administrative violation results
from actions in violation of Agency funds control policies and procedures below
the allotment level. The penalties for such violations are handled on a case-by-
case basis.

The excess allowances to missions occurred because USAID Bureaus sent out
allotments to their respective missions before recording those allotments in the
financial management system. The $25 million in cumulative allotments that were
included in its records before the related apportionments were recorded, could lead
to Funds Control Violations in the allotment process for funding its missions.
Because USAID took corrective steps to eliminate this weakness during the course
of our audit, we are not including a recommendation to USAID management in
this report.




                                                                                   29
                          USAID’s System for Preparing the Management Discussion and Analysis
                          Section of the Performance and Accountability Report Needs Improvement

                          OMB Bulletin No. 01-02 requires the OIG to (a) obtain an understanding of the
                          components of internal controls relating to the existence9 and completeness10
                          assertions relevant to the performance measures included in the MD&A and (b)
                          report on those internal controls that have not been properly designed and placed
                          in operation.

                          The MD&A is a narrative overview, prepared by management, which describes
                          the reporting entity and its mission, activities, program and financial results, and
                          financial condition. The Statement of Federal Financial Accounting Standards
                          (SFFAS) No. 15, “Management's Discussion and Analysis,” requires the MD&A
                          to be included as required supplementary information in each annual financial
                          statement. OMB Bulletin No. 01-09 provides additional guidance for preparing
                          the MD&A and requires that the discussion of performance relate to major goals
                          and objectives in the Agency’s strategic and performance plans, and that it
                          provide a clear picture of planned and actual performance.

                          USAID has made notable improvements to this year’s draft MD&A over the FY
                          2002 MD&A in two major ways:

                              1. The draft MD&A reported more current-year results. For example, it
                                 reported FY 2003 results for important programs being conducted in Iraq
                                 and Afghanistan. Additionally, the draft MD&A reported FY 2003
                                 accomplishments made by the Global Development Alliance and reported
                                 FY 2003 performance results for selected activities under each of the six
                                 strategic goal areas. The draft MD&A did not, however, tie these
                                 activities to indicators or targets established in the 2003 performance
                                 plan, as discussed below.

                              2. The draft MD&A has also been reorganized to present performance
                                 results information under each strategic goal. This allows a user to link
                                 the performance results reported under each strategic goal in the MD&A
                                 to the corresponding goal category featured in the Statement of Net Cost.

                          Although notable improvements have been made, more needs to be done. Based
                          on a limited review of USAID's system to collect and report performance
                          information in the draft MD&A, the OIG identified the following weaknesses:



9
         This management assertion deals with whether information included in the MD&A actually occurred during the
given period.
10
         This management assertion deals with whether all performance results which should be presented have been
included.


                                                                                                                      30
                             •   USAID's current system does not yet capture significant reporting of
                                 Agency-wide performance results for the current year. For example,
                                 much of the Agency-wide performance information contained in the draft
                                 FY 2003 MD&A relates to FY 2002 data. Although the draft MD&A
                                 included discussion of selected program performance results for FY
                                 2003, much of this discussion was anecdotal information relating to a
                                 particular mission or program. Moreover, the discussion did not provide
                                 a clear and complete picture of current-year performance on an Agency-
                                 wide basis under each strategic goal.

                             •   Except for USAID’s discussion under its Management Goal, the draft
                                 MD&A did not provide performance indicators/targets for many of the
                                 actual results reported for FY 2003. Since current-year results were not
                                 clearly linked to planned performance goals or targets contained in
                                 USAID's FY 2003 Annual Performance Plan, the draft MD&A did not
                                 provide a clear picture of planned and actual program performance for
                                 FY 2003.


                         In conclusion, as the OIG reported in previous years, USAID needs to improve
                         its system for collecting, summarizing, and preparing performance information
                         included in the MD&A. Specifically, USAID needs to revise its current system
                         to ensure that the MD&A contains a clear picture of USAID's planned
                         performance goals/targets for the current year and a comparison of these goals
                         with more actual results for the current year. Since recommendations addressing
                         the issues identified were made in a recent OIG audit report11, we did not include
                         a recommendation in this report regarding the MD&A.




                         Office of Inspector General
                         November 14, 2003




11
        Audit of USAID’s Efforts to Meet the Requirements of the Government Performance and Results Act of 1993,
Audit Report No. 9-000-03-011-P, dated September 30, 2003.

                                                                                                                   31
This page left intentionally blank




                                     32
                Independent Auditor’s Report on Compliance
                        With Laws and Regulations

Report on        Did USAID comply with laws and regulations that could have a direct and
Compliance       material effect on the financial statements, and with any other applicable
With Laws and    laws and regulations?
Regulations
                 We have audited the financial statements of USAID for the fiscal years ended
                 September 30, 2003 and 2002 and have issued our report thereon. We conducted
                 the audit in accordance with generally accepted auditing standards the standards
                 applicable to financial audits contained in Government Auditing Standards (issued
                 by the Comptroller General of the United States) and the Office of Management
                 and Budget (OMB) Bulletin No. 01-02, “Audit Requirements for Federal Financial
                 Statements.”

                 The management of USAID is responsible for complying with laws and
                 regulations applicable to USAID. As part of obtaining reasonable assurance about
                 whether USAID’s financial statements are free of material misstatement, we
                 performed tests of its compliance with certain provisions of laws and regulations,
                 noncompliance with which could have a direct and material effect on the
                 determination of financial statement amounts. Also, we tested certain other laws
                 and regulations specified in OMB Bulletin No. 01-02, including the requirements
                 contained in the Federal Financial Management Improvement Act (FFMIA) of
                 1996, the Computer Security Act of 1987, the Debt Collection and Improvement
                 Act of 1996 and OMB Bulletin No. 01-09. We limited our tests of compliance to
                 these provisions and we did not test compliance with all laws and regulations
                 applicable to USAID.

                 The results of our tests disclosed instances, described below, in which USAID's
                 financial management systems did not substantially comply with Federal
                 financial management system requirements, Federal Accounting Standards, and
                 the U.S. Standard General Ledger at the transaction level.

                 Under FFMIA, we are required to report whether USAID’s financial management
                 systems substantially comply with the Federal financial management systems
                 requirements, applicable Federal accounting standards, and the United States
                 Government Standard General Ledger at the transaction level. To meet this
                 requirement, we performed tests of compliance with FFMIA section 803 (a)
                 requirements.

                 The results of our tests disclosed instances, described below, in which USAID's
                 financial management systems did not substantially comply with Federal
                 financial management system requirements, Federal Accounting Standards, and
                 the U.S. Standard General Ledger at the transaction level.



                                                                                                 33
                         Nature, Extent, and Causes of Noncompliance

                         FFMIA was passed to improve Federal financial management by ensuring that
                         Federal financial management systems provide reliable, consistent financial data
                         from year to year. The Act requires each agency to implement and maintain
                         financial management systems that comply substantially with:

                             •    Federal financial management system requirements.

                             •    Applicable Federal Accounting Standards.

                             •    The United States Government Standard General Ledger at the
                                  transaction level.

                         OMB Circular A-127, “Financial Management Systems,” prescribes policies and
                         standards for agencies to follow in developing, operating, evaluating, and
                         reporting on financial management systems. Section 7 of the Circular identifies
                         the requirements that Federal financial systems should meet. In January 2001,
                         OMB issued a guidance, “Revised Guidance for the Federal Financial
                         Management Improvement Act,” to supplement Office of Management and
                         Budget Circular No. A-127. The purpose of the guidance is to help determine
                         whether financial systems substantially comply with FFMIA requirements. That
                         guidance identifies various requirements that an agency must meet. (Please note
                         that, although OMB issued a draft Super Circular that would replace its FFMIA
                         guidance, that effort was discontinued. As such, according to OMB officials, the
                         January 2001 guidance remains in full effect.)

                         Since 1997, the OIG has reported that USAID’s financial management systems
                         did not substantially comply with system requirements under FFMIA.12 The
                         reason for USAID's noncompliance was that the Agency's core financial
                         management system13 did not operate effectively. Therefore, USAID had to rely
                         on a combination of outdated legacy systems; informal, unofficial records; and a
                         core financial management system that suffered from technical and operational
                         problems.

                         Since December 2000, USAID has been pursuing an effort to modernize the
                         Agency's systems and meet FFMIA requirements. Specifically, USAID




        12
                   Reports on USAID’s Consolidated Financial Statements, Internal Controls, and Compliance for Fiscal
Year 2000 (Audit Report No. 0-000-01-006-F, February 26, 2001); Reports on USAID’s Consolidated Financial Statements,
Internal Controls, and Compliance for Fiscal Year 1999 (Audit Report No. 0-000-00-006-F, February 18, 2000); and Audit
of the Extent to Which USAID’s Financial Management System Meets Requirements Identified in the Federal Financial
Management Improvement Act of 1996 (Audit Report No. A-000-98-003-P, March 2, 1998).
         13
                   Called the New Management System.

                                                                                                                   34
                         implemented a new core financial system in Washington and completed efforts
                         to upgrade or interface five major systems.14

                         In addition, USAID plans to deploy its new core financial system overseas, with
                         pilot-testing scheduled to begin in April 2004. According to USAID officials, all
                         38 accounting stations will be converted to the new system by the summer of
                         2005, but the integration with a procurement system will not take place until, at
                         the earliest, late 2005. (At this time, the OIG is not sure whether this delay will
                         impact USAID’s ability to meet financial management system requirements.)

                         In March 2003, the Department of State and USAID conducted a joint study to
                         explore the possibility of implementing a joint financial management system.
                         The study concluded that USAID and State could share the core financial system
                         but should maintain separate databases because State and USAID business
                         processes and information requirements are very different. Based on the
                         recommendations from the study, USAID plans to share a single version of the
                         core financial system with the Department of State beginning, in October 2005.

                         Federal Financial Management System Requirements

                         Although USAID has enhanced its financial management systems over the past
                         three years, further improvements are needed to:

                              •   Integrate the systems to further strengthen funds control.

                              •   Strengthen computer security controls.

                         As a result, USAID's financial system may not provide users with the complete,
                         accurate, and timely financial information needed for decision-making purposes.
                         The following paragraphs discuss some of USAID’s progress made during fiscal
                         year 2003—as well as some of the problems that continued to exist.

                         Funds Control – According to OMB Circular No. A-11, “Preparation,
                         Submission, and Execution of the Budget,” each Federal agency is responsible
                         for establishing a funds control system that will ensure that the agency does not
                         obligate or expend funds in excess of those appropriated or apportioned. In
                         addition, the Circular states that at year-end, multi-year funds not obligated that
                         remain available must be reapportioned in the upcoming fiscal year.

                         In January 2003,15 the OIG reported that because USAID did not have an
                         integrated financial management system, it used a separate system to process

        14
                  Those systems were: (1) Acquisition and Assistance System (procurement system), (2) National Finance
Center Payroll System (payroll system), (3) Management Accounting and Control System Auxiliary Ledger, (4) letter of
credit grant processing system, and (5) loan-processing system.
        15
           Report on USAID’s Consolidated Financial Statements, Internal Controls and Compliance for Fiscal Year 2002
(Audit Report No. 0-000-03-001-C, January 24, 2003).

                                                                                                                     35
obligations for its overseas missions. As such, the appropriation amount
displayed as available after the roll-up was overstated by the amount of the
mission obligations. To compensate for this weakness, USAID allowed only a
few users to apportion funds. Further, those users had access to “cuff records” to
track mission obligations and determine the correct amount available for
apportionment. Because this issue should be corrected with the deployment of
the core financial system to the overseas missions, we did not make any
recommendations. The OIG will continue to monitor USAID’s progress in
deploying its core financial system overseas.

Computer Security Weaknesses – OMB Circular No. A-130, Appendix III,
requires agencies to implement and maintain a program to assure that adequate
security is provided for all agency information systems. However, during recent
audit work, the OIG found that computer security weaknesses continued to exist.
For example, USAID did not implement an information security training
program, as required. This occurred because USAID’s Information System
Security Officer did not have the authority to enforce mandatory training
requirements because program, mission, and division directors control
employees within their respective organizations. As a result, USAID’s
information systems were not fully protected from risks and vulnerabilities.

Reorganization of Data in USAID’s Core Financial Management System –
In November 2001, USAID’s Administrator implemented a reorganization of the
Agency, thus creating new bureaus and eliminating or combining others. As a
result of the reorganization, the financial data within USAID’s core financial
system had to be changed to accommodate the Agency’s new organizational
structure.

This audit concluded that USAID’s reorganization process did not adversely
affect the integrity of the Agency’s financial data.

Statements on Federal Financial Accounting Standards (SFFAS)

Standard No. 1: Accounting for Selected Assets and Liabilities

USAID's advances and accounts receivable did not comply with Statement of
Federal Financial Accounting Standards (SFFAS) No. 1, as discussed below.

Accounts Receivable – USAID does not have an adequate system or process to
recognize its worldwide accounts receivable in a timely manner. USAID is only
aware of its receivables when its Office of Procurement, missions, and
contractors/grantees report them to its Office of Financial Management. This
situation occurred because USAID lacked coordination and integration of
various systems, adequate policy and procedural guidance and, as previously
stated, an integrated financial management system.




                                                                               36
SFFAS No. 1 requires that a receivable be recognized (recorded) when a claim to
cash or other assets has been established. The establishment of a receivable
cannot occur on a timely basis unless there are adequate procedures for
recognizing and reporting accounts receivable at the end of each accounting
period. USAID did not comply with the accounts receivable aspects of SFFAS
No. 1.

Standard No. 4: Managerial Cost Accounting Concepts and Standards for
the Federal Government

USAID did not comply with all elements of SFFAS No. 4. Specifically, USAID
does not have an effective system of identifying and reporting all costs against
appropriate Agency goals. USAID did not record and report about $2.1 billion
in expenses to the correct Agency goals in FY 2003.

SFFAS 4, paragraph 146, requires that a costing methodology, once adopted, be
used consistently so that cost information can be compared from year to year.
Since USAID was required to make such large adjustments of costs between
goals in its Statement of Net Cost, the FY 2003 data on expenses within each of
USAID’s six Agency goals cannot effectively be compared to that of FY 2002.
As mentioned in SFFAS No.4, paragraph 20, Congress and Federal executives,
including the President, make policy decisions on program priorities and allocate
resources among programs using this cost information. These users need cost
information to compare alternative courses of action, to make program
authorization decisions, and to evaluate program performance but USAID’s
current system does not allow this to be accomplished successfully.

Standard No. 15, Management’s Discussion and Analysis (MD&A)

According to SFFAS 15, each general purpose federal financial report should
include financial statements and a section devoted to the MD&A. SFFAS 15
states that the MD&A is required supplementary information and should include,
among other things, information on performance goals and results that relate to
the financial statements.

Based on our review of a draft of the MD&A, dated October 10, 2003, the OIG
determined that the draft MD&A did not provide a clear and concise description of
program performance that related to the financial statements included in the
Performance and Accountability Report. Specifically, the draft MD&A did not
provide a clear picture of planned and actual performance for fiscal year 2003
since the document contained few performance targets and inadequate coverage of
the agency-wide performance results relating to key targets contained in the FY
2003 Annual Performance Plan.




                                                                               37
United States Standard General Ledger at the Transaction Level

FFMIA requires agencies to implement and maintain systems that comply
substantially with, among other things, the United States standard general
ledger at the transaction level. This requires the agency’s recording of
financial events to be consistent with all applicable account descriptions and
posting models/attributes reflected in the standard general ledger issued by the
Department of the Treasury, Financial Management Service.

The OIG previously determined that USAID did not substantially comply with
the standard general ledger at the transaction level. Specifically, in fiscal year
2001, the OIG reported that USAID did not record mission activities—
accounting for approximately 52 percent of USAID's total net cost of
operations—using the standard general ledger at the transaction level. This
occurred because USAID recorded mission activities in the Mission Accounting
and Control System—a computer-based system that did not have a standard
general ledger chart of accounts. Instead, the Mission Accounting and Control
System uses transaction codes to record transactions.

Thus, USAID cannot ensure that transactions are posted properly and consistently
from mission to mission. Therefore, USAID needs to record mission activities
using the standard general ledger at the transaction level to support financial
reporting and meet the requirements of the Department of Treasury. However,
until USAID deploys its core financial system worldwide, the Mission Accounting
and Control System will continue to operate as the financial system for overseas
missions.

As discussed in the “Nature, Extent, and Causes of Noncompliance” section,
USAID plans to convert all 38 accounting stations to its new core financial system
by the summer of 2005. The OIG will continue to monitor USAID’s progress to
deploy its core financial system overseas.

Remediation Plan

OMB Circular No. A-11 states that an agency that is not in compliance with
FFMIA must prepare a remediation plan. The purpose of a remediation plan is to
identify activities planned and underway that will allow USAID to achieve
substantial compliance with FFMIA. Remediation plans must include the
resources, remedies, interim target dates, and responsible officials. Further, the
remediation target dates must be within three years of the date the system was
determined not to be substantially compliant.

For fiscal year 2003, USAID had a target to conduct a study to make more
effective use of capital planning, enterprise architecture, and modern business
practices to modernize the Agency’s business systems and accelerate the
Agency-wide deployment of its core financial management system. According
to USAID’s updated remediation plan in the “USAID CFO FY-2004 Financial

                                                                               38
Management Budget Justification” USAID conducted the planned study as
scheduled.

Computer Security Act

The Computer Security Act of 1987 (Public Law No. 100-235) requires Federal
agencies to protect information by (1) identifying sensitive systems, (2)
developing and implementing security plans for sensitive systems, and (3)
establishing a training program to increase security awareness and knowledge of
accepted security practices. To further improve program management and
evaluations of agencies’ computer security efforts, the Federal Information
Security Management Act (Public Law No. 107-347) was passed in January
2002.

Since September 1997, the OIG has reported that USAID did not implement an
effective computer security program as required. In response to OIG audits,
USAID has made substantial computer security improvements. For example,
USAID:

   •   Implemented centralized controls of all firewalls deployed through the
       Agency network.

   •   Integrated encryption capabilities into three communication paths being
       used through the Agency-wide network.

   •   Executed a performance measure program that monitors the Missions’
       Information Security Technology risk levels.

   •   Developed a technical assessment guide to determine USAID’s network
       detection capabilities.

   •   Developed information security training for personnel in key information
       security positions.

Although USAID has taken steps to improve computer security, more work is
needed to ensure that sensitive data are not exposed to unacceptable risks of loss
or destruction. USAID plans to correct this material weakness by October 2003.
The OIG will continue to monitor USAID's progress in improving computer
security.

Debt Collection and Improvement Act of 1996

The Debt Collection and Improvement Act of 1996 and the Federal Claims
Collection Standards authorize USAID to:

   1. Collect debts owed to the Agency by means of administrative offset.


                                                                               39
  2.   Assess interest, penalties, and administrative costs on overdue debts
       against its debtors.

  3.   Contract for private collection services.

   4. Disclose information on debts to credit reporting agencies.

   5. Report compromises to the Internal Revenue Service.

USAID's Claims Collection Standards, 22 CFR 213, cover the due process rights
of debtors and procedures for collecting delinquent debt.

USAID has not complied with all elements of the Debt Collection and
Improvement Act of 1996 that require Federal agencies to report to the
Department of Treasury any receivables that should be included in the
Treasury’s offset program. This situation occurred primarily because USAID
does not have an effective process for establishing accounts receivable.

Office of Management and Budget (OMB) Bulletin No. 01-09

The Office of Management and Budget Bulletin No. 01-09 requires Federal
agencies to reconcile intragovernmental assets, liabilities, and revenue amounts
with trading partners semi-annually in FY 2002 and quarterly beginning in FY
2003. USAID has not complied with all elements of this specific requirement.
Specifically, USAID has not reconciled all intragovernmental activities with its
trading partners. This occurred because USAID lacked the dedicated resources
needed to conduct this periodic reconciliation.




Office of Inspector General
November 14, 2003




                                                                              40
Management       We received USAID’s management comments to the findings and
Comments and     recommendations included in our draft report. USAID management agreed with
Our Evaluation   all findings and recommendations. Management commented that they are
                 extremely pleased that the OIG was able to issue unqualified opinions on all of
                 USAID’s principal financial statements.        Also, USAID’s management
                 recognized the OIG’s dedication and cooperation throughout the audit process.
                 We have evaluated USAID’s management comments on the recommendations
                 and have reached management decisions on all four recommendations. The
                 following is a brief summary of USAID’s management comments on each of the
                 four recommendations included in this report and our evaluation of those
                 comments.

                 Recommendation No. 1

                 USAID management agreed with Recommendation No. 1. The Office of
                 Financial Management agreed to work with the Office of Policy and Program
                 Coordination to implement this recommendation.             We agree with this
                 management decision.         Regarding recommendation No. 1.2, USAID
                 management commented that they agree to take the action that is consistent with
                 the cited Automated Directives System policy requiring all strategic objectives to
                 be assigned to an Agency goal except for Program Development and Learning
                 Objectives and Objectives exempted from strategic planning requirements for
                 foreign policy reasons. We believe that whenever exempted programs are
                 assigned strategic objectives, those strategic objectives should be assigned to a
                 corresponding Agency goal according to the Automated Directives System.

                 Recommendation No. 2

                 USAID management agreed with Recommendation No. 2 and plan to implement
                 this recommendation by March 31, 2004. We agree with the management
                 decision on this recommendation and will review USAID’s implementation of
                 this recommendation in our FY 2004 GMRA audit.

                 Recommendation No. 3

                 USAID management agreed with Recommendation No. 3. Management
                 commented that they agree to implement this recommendation and will engage
                 overseas staff in the implementation process. USAID management commented
                 that it has a target completion date of June 30, 2004 for the implementation of
                 this recommendation. We agree with this management decision and will review
                 USAID’s progress in the implementation of this recommendation in our FY 2004
                 GMRA audit.




                                                                                                41
Recommendation No. 4

USAID management agreed with Recommendation No. 4. Management
commented that it plan to implement this recommendation and convene a follow-
up team to review USAID’s progress in the implementation and eventual closure
of this recommendation. USAID commented that it would implement this
recommendation by June 30, 2004. We agree with this management decision
and will review USAID’s progress in its implementation during our FY 2004
GMRA audit.



See Appendix II for USAID’s management comments.




                                                                          42
                                                                                                 Appendix I

     Scope and           Scope
     Methodology
                         This audit was conducted in accordance with generally accepted
                         government auditing standards. Following those standards, we assessed
                         the reliability of USAID’s fiscal year 2003 financial statements, related
                         internal controls, and compliance with provisions of applicable laws and
                         regulations.

                         We obtained an understanding of the account balances reported in
                         USAID’s FY 2003 financial statements. The OIG determined whether the
                         amounts were reliable, whether applicable policies and procedures were
                         established, and whether they had been placed in operation to meet the
                         objectives of the Federal Accounting Standards Advisory Board and other
                         regulations. We considered all reasonable efforts made by USAID’s
                         management to improve its financial management and respond to our
                         previous recommendations relating to the operations of its financial
                         portfolio.

                         We statistically selected and reviewed FY 2003 financial statements and
                         financial related activities at USAID/Washington and 16 USAID
                         missions16. A planning materiality threshold of five percent and testing
                         materiality threshold of three percent was calculated. These materiality
                         thresholds were based on USAID FY 2002 total assets net of
                         intergovernmental balances.      Any amount over $75 million was
                         considered material and was included in our audit of USAID’s FY 2003
                         financial statements. All exceptions were considered in the aggregate to
                         determine whether USAID’s FY 2003 financial statements were reliable.

                         With respect to the Management’s Discussion and Analysis (MD&A), we
                         did not perform an audit. However, we gained an understanding of
                         USAID’s system of collecting and reporting performance information.
                         We did not assess the quality of the performance indicators and performed
                         only limited tests to assess the controls established by USAID. Based on
                         our limited tests of the measurement and presentation of performance
                         results reported in the MD&A, we identified certain deficiencies that, in
                         our judgment, adversely affected USAID’s portrayal of performance
                         results as required by prescribed guidelines.



16
        The 16 missions selected were USAID: Mali, Hungary, Mozambique, Haiti, Egypt, Jamaica, Dominican
Republic, Bangladesh, India, El Salvador, Senegal, South Africa, Ukraine, Russia, Ghana, and Nigeria. USAID
Dominican Republic, Haiti, and Jamaica were substituted for USAID/Kenya because of security concerns.



                                                                                                              43
Methodology

In accomplishing our audit objectives, we reviewed significant line items
and amounts related to USAID’s fiscal year 2003 financial statements.
These financial statements include the Balance Sheet, Statement of Net
Cost, Statement of Changes in Net Position, Statement of Budgetary
Resources, and Statement of Financing. To accomplish the audit
objectives we:

   •   Obtained an understanding of the components of internal control
       and assessed the level of control risk relevant to the assertions
       embodied in the class of transactions, account balances, and
       disclosure components of the financial statements.

   •   Performed tests of compliance with laws and regulations that could
       have a direct and material effect on USAID’s financial statements
       including the Federal Financial Management Improvement Act.

   •   Conducted internal control reviews at USAID/Washington and 16
       statistically selected missions and detailed audit tests of selected
       account balances at USAID/Washington and the 16 statistically
       selected missions.

   •   Statistically selected and confirmed outstanding advances to
       grantees and selected direct loan balances.

   •   Reviewed prior audit reports related to USAID financial activities
       and determined their impact on USAID’s fiscal year 2003 financial
       statements.

   •   Conducted meetings with USAID management, employees,
       contractors, grantees, and other parties associated with the
       information presented in the FY 2003 financial statements.

   •   Followed up on previous financial statement audit
       recommendations and restated those recommendations not
       implemented by USAID management.

   •   Conducted a limited review of the internal controls related to the
       existence and completeness assertions relevant to the performance
       measures included in the MD&A. Reviewed the October 10, 2003,
       draft of the MD&A.



                                                                         44
                                                                         Appendix II



USAID’s
Management                                              November 10, 2003
Comments
                          U.S. AGENCY FOR
             INTERNATIONAL
              DEVELOPMENT

                    MEMORANDUM

                    TO:            AIG/A, Bruce N. Crandlemire

                    FROM:          CFO, Lisa D. Fiely /s/

                   SUBJECT:       Management Response to Draft Independent
                                  Auditor's Report on USAID's Consolidated Financial
                                  Statements, Internal Controls, and Compliance for
                                  Fiscal Years 2002 and 2003 (Report No. 0-000-04-
                                  001-C)

                     Fiscal year 2003 was a landmark year for Federal financial
             management at USAID. We are pleased that your draft report titled
             “USAID’s Consolidated Financial Statements, Internal Controls, and
             Compliance for Fiscal Years 2002 and 2003” so fairly presents both our
             progress and our remaining challenges. We are extremely pleased that you
             are able to issue unqualified opinions on all of USAID's five principal
             financial statements. We wish to recognize the OIG’s dedication and
             cooperation throughout the audit process. We appreciate the excellent
             counsel and support the auditors provided to us. As noted in your report, in
             addition to receiving an unqualified audit opinion, we met the significant
             challenge set by the Office of Management and Budget (OMB) and the
             U.S. Department of Treasury (U.S. Treasury) of adopting the earlier
             reporting date of November 15, 2003, 45 days after the close of the fiscal
             year. We also appreciate your acknowledgement of the improvements that
             we made throughout the year to improve financial systems and processes.

                     Following are our management decisions regarding the proposed
             audit recommendations:




                                                                                      45
USAID’s Methodology for Assigning Strategic Objectives to Agency
Goals Needs Improvement

Recommendation 1: We recommend that USAID’s CFO coordinate with
the PPC Bureau to:

1.1    Obtain annual certifications from responsible offices showing that
       their strategic objectives are properly assigned to the appropriate
       Agency goals.

1.2    Implement ADS 201.3.7.1 by requiring that all strategic objectives
       be assigned to an Agency goal.

1.3    Develop separate allocation methodologies for strategic objectives
       that must be allocated to more than one Agency goal.

Management Decision: We agree to work with PPC to implement these
recommendations. Regarding recommendation 1.2, we agree to take action
that is consistent with the cited ADS policy; therefore, we will require that
all strategic objectives be assigned to an Agency goal, except Program
Development and Learning Objectives and objectives exempted from
strategic planning requirements for foreign policy reasons. Target
completion date is September 30, 2004.

USAID’s Process for Reviewing Quarterly Accounts Payable and
Accrued Program Expenses via its Accruals Reporting System Needs
Improvement.

Recommendation 2: We recommend that USAID’s CFO:

2.1    Establish and implement procedures to obtain updated Cognizant
       Technical Officer information whenever personnel changes affect
       the information recorded in the Accruals Reporting System.

2.2    Establish and implement procedures to evaluate the reliability of the
       Accrual Reporting System by performing quarterly reviews using
       valid statistical analysis techniques.

2.3    Establish and implement procedures to compile and maintain
       quarterly analytical information on the number and amount of
       modified and system-generated accruals certified in the Accruals
       Reporting System by USAID’s Cognizant Technical Officers – by
       USAID Bureau – to assist in planning follow-up reviews of Accrual
       Reporting System information.




                                                                          46
Management Decision: We agree to implement recommendations 2.1, 2.2,
and 2.3. Target completion date is March 31, 2004.

USAID’s Process for Reconciling its Fund Balance with the U.S.
Treasury Needs Improvement (Repeat Finding)

Recommendation 3: We recommend that the CFO require its Office of
Financial Management to develop and implement specific procedures for
its overseas missions to reconcile their fund balance accounts with the U.S.
Treasury account.

Management Decision: We agree to implement recommendation 3 and will
engage overseas staff in this process. Target completion date is June 30,
2004.

Unliquidated Obligations Were Not Always Analyzed and Deobligated
as Necessary (Repeat Finding)

Recommendation 4: We recommend that the USAID CFO:

4.1    Issue revised and expanded policy and procedural guidance for the
       careful reviews needed to identify the amount of unliquidated
       obligations that are no longer needed.

4.2    Review the lists of unliquidated obligations totaling $119 million
       identified in this report and make a determination regarding the
       deobligation of those funds.

Management Decision: We agree to implement these recommendations. A
follow-up team will be convened to review progress and issues since the
quick hit effort in 2002. This team will be responsible for taking the
necessary actions to close these recommendations. Target completion date
is June 30, 2004.

        In closing, I would like to restate USAID’s commitment to
continual improvement in financial management. That commitment
permeates throughout the Agency. We will continue the improvements
made in the last few years as we develop and implement the fundamental
long-term solutions needed to address the internal control weaknesses cited
in your report. Both the OIG and USAID management recognize that it is
only through implementation of our financial system (Phoenix) worldwide
that we will be able to overcome many of the weaknesses cited in your
audit report.




                                                                         47
This page intentionally left blank




                                     48
                                                                                 Appendix III



Status of           Office of Management and Budget’s (OMB) Circular No. A-50 states that a
Uncorrected         management decision on audit recommendations shall be made within a
Findings and        maximum of six months after a final report is issued. Corrective action
Recommendations     should proceed as rapidly as possible. The following audit recommendations
from Prior Audits   directed to USAID either have not been corrected and/or final action has not
                    been completed as of September 30, 2003. We have also noted where final
That Affect the
                    action was taken subsequent to fiscal year-end but prior to the date of this
Current Audit       report.
Objectives
                    Audit of USAID’s Compliance with
                    Federal Computer Security Requirements
                    Audit Report No. A-000-97-008-P, September 30, 1997

                    Recommendation No. 2: We recommend that the Acting Assistant
                    Administrator for Management demonstrate support for an effective
                    computer security program by taking action to direct the computer security
                    program manager to develop and implement an effective computer security
                    program by:

                    2.2    Ensuring that adequate resources and skills are available to
                           implement the program.

                    2.4    Implementing disciplined processes to ensure compliance with the
                           Computer Security Act of 1987 and OMB Circular A-130.

                    2.5    Bringing sensitive computer systems, including the New
                           Management System, into compliance with computer security
                           requirements by: (1) assigning security responsibility, (2) preparing
                           security plans, (3) completing contingency/disaster recovery plans,
                           (4) identifying technical controls, (5) conducting security reviews,
                           and (6) obtaining management’s authorization before allowing
                           systems to process data.

                    Recommendation is pending final action by USAID.




                                                                                              49
Report on USAID’s Financial Statements,
Internal Controls, and Compliance for Fiscal Year 1998
Audit Report No. 0-000-99-001-F, March 1, 1999

Recommendation No. 1: Because the Chief Financial Officer lacks the
authority called for in the CFO Act, we recommend that the Chief
Financial Officer collaborate with the Assistant Administrator for
Management, Chief Information Officer, and Bureau For Policy and
Program Coordination to:

1.1    Determine the specific responsibility, authority, and resources
       needed to meet the requirements of the Chief Financial Officers Act
       of 1990, which assigns the Chief Financial Officer responsibility to:
       (1) develop and maintain an integrated accounting and financial
       management system that meets federal financial system
       requirements, federal accounting standards, and the U.S. Standard
       General Ledger at the transaction level; (2) approve and manage
       financial management system design and enhancement projects;
       and (3) develop a financial management system that provides for
       systematic measurement of performance.

Recommendation is pending final action by USAID.


Report to USAID Managers on Selected
USAID Internal Controls for Fiscal Year 1998
Audit Report No. 0-000-99-002-F, March 31, 1999

Recommendation No. 10: We recommend that USAID’s Bureau for
Policy and Program Coordination:

10.2   Develop internal controls for identifying the full costs (USAID
       program and operating expenses and funding by other donors and
       host countries) of USAID programs, activities, and outputs.

Recommendation is pending final action by USAID.


Report on USAID’S Consolidated
Financial Statements, Internal Controls
And Compliance for Fiscal-Year 2002
Audit Report No. 0-000-03-001-C, January 24, 2003

Recommendation No. 2: We recommend that the Chief Financial Officer:




                                                                         50
2.1   Provide detailed guidelines to overseas missions for writing off old
       reconciling items. These guidelines should include the reconciliation
       steps that should be completed before USAID missions request write-
       offs.

2.2    Reconcile the mission adjustment account in the general ledger to the
       cumulative amounts in the mission ledgers and resolve differences
       between the general ledger and the mission ledgers.

Recommendation is pending final action by USAID.


Audit of USAID’s Efforts to Meet the Requirements of the
Government Performance and Results Act of 1993, Audit Report No.
9-000-03-011-P, dated September 30, 2003

Recommendation No. 1: We recommend that the USAID Bureau for
Policy and Program Coordination improve USAID’s performance-
reporting system to enable the reporting of current-year results for its
program activities.

Recommendation is awaiting final action by USAID.

Recommendation No. 2: We recommend that the USAID Bureau for
Policy and Program Coordination incorporate annual output indicators into
USAID’s performance-reporting system that will supplement longer-term
outcome indicators.

Recommendation is awaiting final action by USAID.




                                                                         51
This page intentionally left blank




                                     52
UNAUDITED                                             APPENDIX IV
                                                        Page 1 of 66




          UNITED STATES AGENCY for
        INTERNATIONAL DEVELOPMENT




     Consolidated Financial Statements for Fiscal Year 2003




                                                                 53
UNAUDITED                                         APPENDIX IV
                                                    Page 2 of 66




            This page left intentionally blank.




                                                             54
UNAUDITED                                               APPENDIX IV
                                                          Page 3 of 66




                                    TABLE OF CONTENTS




Financial Highlights                                         5


Consolidated Financial Statements                            9


Supplemental Financial Information                          65




                                                                   55
UNAUDITED                                        APPENDIX IV
                                                   Page 4 of 66




            This page left intentionally blank




                                                            56
UNAUDITED                                                                           APPENDIX IV
                                                                                      Page 5 of 66

Financial Highlights
USAID prepares consolidated financial statements that include a Balance Sheet, a Statement of Net
Cost, a Statement of Changes in Net Position, a Statement of Budgetary Resources, and a Statement
of Financing. These statements summarize the financial activity and position of the agency.
Highlights of the financial information presented on the principal statements are provided below.

Balance Sheet
The Balance Sheet presents amounts available for use by USAID: assets; the amounts owed
(liabilities); and, amounts that comprise the difference between assets and liabilities, which is the
Agency’s net financial position or equity.

Assets. Consistent with the prior year, Fund Balance with Treasury and Loans Receivable
represents the vast majority of USAID assets. Together, they account for 91.2 percent ($19.9
billion) of the $21.8 billion in total assets as of September 30. USAID maintains funds with
Treasury to pay its operating and program expenses. These funds increased by about $2.3 billion
(19.5 percent) from $11.9 billion to $14.2 billion during FY 2003. This increase is due to an
increase in the FY 2003 appropriation for Economic Support as well as a supplemental
appropriation bill for Iraq relief and reconstruction signed into law on April 16, 2003.

Loans Receivable, resulting from disbursement of funds under the Direct Loan Programs, totaled
$5.7 billion at year end, net of estimated write-offs due to loan defaults. This balance is $301
million, or 5 percent, lower than the preceding year’s ending balance because of routine collection
during the year of outstanding amounts owed.

The largest percentage change in assets from FY 2002 to FY 2003 occurred in accounts receivables.
Intragovernmental Accounts Receivable increased by $638 million, or 128.5 percent primarily
because of the increase in disbursing authority receivable from the Department of Agriculture’s
Commodity Credit Corporation. Net Accounts Receivable with the Public increased by $35 million,
or 113.1 percent mainly because of credit program accounts receivable activity.

Liabilities. Total USAID liabilities amount to $9.3 billion at yearend. This amount represents an
$840 million, or 9.9 percent, increase in total liabilities from the prior year.

Credit program liabilities, consisting mainly of amounts payable to the U.S. Treasury, account for
most of USAID’s total liabilities. In FY 2003, the amount payable to the Treasury decreased by
$189 million (3.2 percent) from $5.9 billion to $5.7 billion during FY 2003. The remaining credit
program liabilities of $1.2 billion represent the estimated liability associated with USAID’s
guarantees of loans made by private lending institutions. The loan guarantee liability increased
by $111 million (10.6 percent) from last year. To calculate this liability, USAID uses prescribed
post-1991 and pre-1992 methods, both of which are prescribed by federal regulation.




                                                                                                  57
UNAUDITED                                                                           APPENDIX IV
                                                                                      Page 6 of 66

The largest percentage change in liabilities occurred in Intragovernmental Debt. Debt increased
by $62 million, or 372.8 percent, due to an increase in net borrowing in the Direct Loan
Programs.


Net Position. USAID’s net position or equity totals $12.5 billion as of September 30. Most of this
amount—$11.8 billion or 94.3 percent—represent funds appropriated by Congress for use over
multiple years and have not been expended at the end of FY 2003.

Statement of Net Cost
This statement provides the reader with an understanding of the full cost of operating USAID
programs. The majority of costs incurred by USAID is in direct support of its programs. The
agency’s indirect costs relate to general operations such as salaries, training, and support for the
Office of Inspector General. Overall, costs increased by $2.1 billion, or 26.2 percent, from FY 2002.
This increase is consistent with the increase in appropriated funds for additional program and
operational activity.

During FY 2003, USAID made further improvements to the Statement of Net Cost. A detailed
analysis of the linkage between strategic objectives and Agency goals was conducted and several
linkages were updated to reflect the current focus of program activities. This review results in a
more refined depiction of costs associated with Agency goals. Additionally, the Statement of Net
Cost is now presented by responsibility segment. Federal financial accounting standards require
that agencies define and establish responsibility segments for reporting an agency’s net cost. A
responsibility segment carries out a mission or conducts a major line of activity. Managers of
responsibility segments usually report to the top management directly, and their resources and the
results of their operations can be clearly distinguished from those of other organizational
segments. USAID’s functional and geographic bureaus meet the criteria of a responsibility
segment. The Agency’s net cost by responsibility segment is presented in Footnote 17 of the
financial statements.


Following is a break out of net cost by outcome goal for FY 2003.




                                                                                                  58
UNAUDITED                                                                          APPENDIX IV
                                                                                     Page 7 of 66




               U.S. Agency for International Development
         Program Costs and Percentage of Costs by Outcome Goal
                                                 Net Cost
            Outcome Goal                     (In thousands)             Percent
           Broad-Based Economic
           Growth and Agricultural
Goal 1     Development                             $3,702,625             37%
           Strengthen Democracy and
Goal 2     Good Governance                            972,366             10%
           Human Capacity Built
           Through Education and
Goal 3     Training                                   331,251              3%
           Stabilizing World Population
Goal 4     and Protecting Human Health              2,163,167             22%
           Protect the Environment for
Goal 5     Long-Term Sustainability                   757,063              8%
           Promote Humanitarian
Goal 6     Assistance                               2,067,093             20%
TOTAL
S                                                  $9,993,565            100.0%

Statement of Changes in Net Position
This statement identifies those items that caused USAID’s net position to change from the beginning
to the end of the reporting period. The statement includes two major components—Unexpended
Appropriations and Cumulative Results of Operations.

Unexpended Appropriations increased by $1.7 billion, or 17 percent, from FY 2002 to FY 2003.
This increase is principally the result of the supplemental appropriation bill for Iraq relief and
reconstruction authorizing new funding in April 2003.

Cumulative Results of Operations amounts to $714 million as of September 30, an increase of 23.5
percent from the $578 million balance a year earlier. This balance is the cumulative difference, for
all previous fiscal years through 2003, between funds available to USAID from all financing sources
and the net cost of USAID programs and operations.

Statement of Budgetary Resources
The Statement of Budgetary Resources provides information on how budgetary resources were
made available for the year and what the status of budgetary resources was at year-end. During
Fiscal Year 2003, USAID received over $10.8 billion in direct appropriations, less $437 million
in net appropriations transfers to other agencies.



                                                                                                 59
UNAUDITED                                                                            APPENDIX IV
                                                                                       Page 8 of 66

USAID obligated over 81 percent of all available budgetary resources for the year. Among the
unobligated funds, over 93 percent is available for new programming and obligating in future
years.

Appropriations received from the U.S. Treasury increased by 33 percent from FY 2002. This was
primarily because of increased funding in the following major appropriations:

       •   $2 billion for the Economic Support Fund
       •   $393 million for the Child Survival and Health Programs
       •   $221 million for the Development Assistance Fund
       •   $108 million for International Disaster Assistance Fund

Consequently, the increase in appropriated funds also caused increases in the Obligations
Incurred and Net Outlays.

Statement of Financing
The statement of Financing reconciles net obligations as reported on the Statement of Budgetary
Resources to net costs reported on the Statement of Net Costs. Net obligations increased by $2.1
billion, or 26.5 percent, from FY 2002. This increase is due to increased appropriations received
for FY 2003.

Limitations to the Financial Statements
The financial statements have been prepared to report the financial position and results of operations
of USAID, pursuant to the requirements of 31 U.S.C. 3515(b). While the statements have been
prepared from the books and records of USAID, in accordance with generally accepted accounting
principles (GAAP) for Federal entities and the formats prescribed by the Office of Management
and Budget (OMB), the statements are in addition to the financial reports used to monitor and
control budgetary resources which are prepared from the same books and records. The statements
should be read with the realization that USAID is a component of the U.S. Government, a sovereign
entity.




                                                                                                   60
AUDITED                                                                                              APPENDIX IV
                                                                                                       Page 9 of 66
                                         U.S. Agency for International Development
                                          CONSOLIDATED BALANCE SHEET
                                             As of September 30, 2003 and 2002
                                                       (in thousands)
                                                                            2003                2002
           ASSETS
                       Intragovernmental
                     Fund Balance with Treasury (Note 2)                    $      14,215,414           11,897,972
                        Accounts Receivable (Note 3)                                1,134,074             496,369
                          Other Assets (Note 4)                                       32,998               46,527

                       Total Intragovernmental                                     15,382,486           12,440,868



                  Cash and Other Monetary Assets (Note 5)                            240,412              262,088
                      Accounts Receivable, Net (Note 3)                               66,313               31,116
                        Loans Receivable, Net (Note 6)                              5,696,597            5,997,453
                   Inventory and Related Property (Note 7)                            24,027               20,241
          General Property, Plant, and Equipment, Net (Note 8 and 9)                  64,333               54,449
                     Advances and Prepayments (Note 4)                               350,067              329,762

                 Total Assets                                                      21,824,235           19,135,977



                 LIABILITIES (Note 16)


                       Intragovernmental
                         Accounts Payable (Note 10)                                   27,299               69,572
                           Debt (Note 11)                                             79,165               16,744
                        Due to U.S. Treasury (Note 11)                              5,669,725            5,859,175
                    Other Liabilities (Note 12, 13, and 14)                           14,843               50,253

                       Total Intragovernmental                                      5,791,032            5,995,744



                    Accounts Payable (Note 10)                                      1,842,778            1,101,961
                     Loan Guarantee Liability (Note 6)                              1,159,415            1,048,751
           Federal Employees and Veteran's Benefits (Note 14)                         27,400               28,251
                      Other Liabilities (Note 12)                                    511,257              317,635

                  Total Liabilities                                                 9,331,882            8,492,342



                Commitments and Contingencies (Note 15)


                NET POSITION
                    Unexpended Appropriations                                      11,777,877           10,065,290
                    Cumulative Results of Operations                                 714,476              578,345

                       Total Net Position                                          12,492,353           10,643,635



                   Total Liabilities and Net Position                       $      21,824,235    $      19,135,977

                              The accompanying notes are an integral part of these statements
AUDITED                                                                                             APPENDIX IV
                                                                                                     Page 10 of 66/
                                   U.S. Agency for International Development
                                CONSOLIDATED STATEMENT OF NET COSTS
                                For the Years Ended September 30, 2003 and 2002
                                                 (in thousands)
Goal 1:    Broad-Based Economic Growth and Agricultural Development                   FY 2003           FY 2002
                                Intragovernmental                                 $     214,639     $      132,431
          Appropriations Used       With the public                                    3,569,174         2,808,027

                                             Total                                     3,783,813         2,940,458
                                    Less earned revenues                                (81,188)          (59,673)

                                Net program costs                                      3,702,625         2,880,785

Goal 2:            Human Capacity Built Through Education and Training
                                Intragovernmental                                        24,212             75,921
          Appropriations Used       With the public                                     307,797            737,461

                                             Total                                      332,009            813,382
                                    Less earned revenues                                   (758)           (8,876)

                                Net program costs                                       331,251            804,506

Goal 3:              Protect the Environment for Long-Term Sustainability
                                Intragovernmental                                       118,568             38,791
          Appropriations Used       With the public                                     736,453            498,318

                                             Total                                      855,021            537,109
                                    Less earned revenues                                (97,958)          (24,860)

                                Net program costs                                       757,063            512,249

Goal 4:                Stabilizing World Population and Protecting Human Health
                                Intragovernmental                                       172,047             82,005
          Appropriations Used       With the public                                    1,996,562         1,472,830

                                             Total                                     2,168,609         1,554,835
                                    Less earned revenues                                 (5,442)          (48,687)

                                Net program costs                                      2,163,167         1,506,148

Goal 5:                    Strengthen Democracy and Good Governance
                                Intragovernmental                                        27,426             60,947
          Appropriations Used       With the public                                     945,811            641,207

                                             Total                                      973,237            702,154
                                    Less earned revenues                                   (871)          (11,210)

                                Net program costs                                       972,366            690,944

Goal 6:                    Lives Saved through Humanitarian Assistance
                                Intragovernmental                                        56,065             70,924
          Appropriations Used       With the public                                    2,012,834         1,538,770

                                             Total                                     2,068,899         1,609,694
                                    Less earned revenues                                 (1,806)          (81,077)

                                Net program costs                                      2,067,093         1,528,617

                         Less earned revenues not attributed to programs                        -          (5,890)

                       Net Cost of Operations (Note 17)                           $ 9,993,565       $    7,917,359




                 The accompanying notes are an integral part of these statements
AUDITED                                                                                                                                    APPENDIX IV
                                                                                                                                            Page 11 of 66
                                                   U.S. Agency for International Development
                                               CONSOLIDATED STATEMENT OF NET POSITION
                                                For the Years Ended September 30, 2003 and 2002
                                                                 (in thousands)


                                                                                        2003                                           2002


                                                                           Cumulative                                    Cumulative
                                                                           Results of           Unexpended               Results of             Unexpended
                                                                           Operations           Appropriation            Operations             Appropriation
 Beginning Balances                                                    $       578,345      $       10,065,290       $           10,326     $        9,789,358
 Prior period adjustments              (Note 19)                                    1,690             -                       483,897                 (483,782)

 Beginning Balances, as adjusted                                               580,035              10,065,290                494,223                9,305,576
     Budgetary Financing Sources
         Appropriations Received                                               -                    10,536,974               -                       7,936,485
          Appropriations transferred-in/out                                    -                          113,059            -                            213,366
           Other adjustments (recissions, etc)                                 -                          (51,797)           -                            (70,739)
           Appropriations used                                                8,885,648             (8,885,648)             7,319,398               (7,319,398)
           Nonexchange revenue                                                 -                      -                                               -
           Donations and forfeitures of cash
             and cash equivalents                                              100,316                -                       104,919                 -
           Transfers-in/out without reimbursement                             1,128,139               -                       565,633                 -
             Other financing sources                                           -                      -                                               -
            Transfers-in/out without reimbursement                             -                      -                          (1,928)              -
             Imputed financing from costs absorbed by others                       13,902             -                          13,459               -

 Total Financing Sources                                                     10,128,005              1,712,588              8,001,481                     759,714


 Net Cost of Operations                                                       9,993,565               -                     7,917,359                 -




 Ending Balances                                                       $       714,475      $       11,777,878       $        578,345       $       10,065,290




                                         The accompanying notes are an integral part of these statements
AUDITED                                                                                                                                                       APPENDIX IV
                                                                                                                                                               Page 12 of 66
                                                          U.S. Agency for International Development
                                                    COMBINED STATEMENT OF BUDGETARY RESOURCES
                                                       For the Years Ended September 30, 2003 and 2002
                                                                        (in thousands)
                                                                        FY 2003                FY 2003               FY 2002                    FY 2002
                                                                                            Credit Program                                   Credit Program
                                                                        Budgetary             Financing              Budgetary                 Financing

              Budget Authority
                   Appropriations Received                                  10,801,068                       -            7,971,616
                   Borrowing Authority (Note 20)                                        -           62,886                                                    465
                  Net Transfers                                              (436,693)                       -              669,622
                   Other                                                                -                    -               32,525

                Total Budget Authority                                      10,364,375              62,886                8,673,763                           465
              Unobligated Balance:
                   Beginning of Period                                       1,592,265             798,979                1,769,666                    796,958
                 Net Transfers, Actual                                         (1,684)                       -               (4,599)

                 Total Unobligated Balance                                   1,590,581             798,979                1,765,067                   796,958
          Spending Authority from Offsetting Collections:
                  Earned
                        Collected                                             892,844              208,543                1,029,293                   129,867
                        Receivable from Federal Sources                        (5,961)              11,328                       (678)                (11,327)
                  Change in Unfilled Customer Orders
                    Advance Received                                                (331)                    -
                   Anticipated for Rest of Year, Without Advances                       -                    -

                 Subtotal                                                     886,552              219,871                1,028,615                   118,540
          Recoveries of Prior Year Obligations                                 158,594              14,180                  128,325                      5,904
          Permanently Not Available                                          (712,773)                (465)               (987,596)                   (48,249)

          Total Budgetary Resources                                         12,287,329           1,095,451               10,608,174                   873,618

          Obligations Incurred Direct (Note 20)                              9,973,855             113,832                9,012,090                     74,639
          Unobligated Balance, Available                                     2,172,882             981,619                1,544,909                    793,076
          Unobligated Balance, Unavailable                                    140,592                        -               51,175                      5,903

          Total Status of Budgetary Resources                               12,287,329           1,095,451               10,608,174                   873,618

          Relationship of Obligations to Outlays:
          Obligated Balance, Net, Beginning of Period (Note 20)              9,431,741              26,868                8,887,092                     14,665
          Obligated Balance, Transferred, Net                                       1,819                    -
          Obligated Balance, Net, End of Period:
                 Accounts Receivable                                           (3,832)                       -               (9,987)                    11,327
                  Unfilled Customer Orders From Federal Sources                      -                   -
                   Undelivered Orders                                        9,209,121               1,731                8,341,194                     14,733
              Accounts Payable                                               1,367,956                (135)               1,100,015                           808
          Outlays:
                 Disbursements                                               8,680,899             113,597                8,340,309                     67,860
              Collections                                                    (892,551)            (208,543)              (1,029,292)                 (129,868)
                 Subtotal                                                    7,788,348             (94,946)               7,311,017                   (62,008)
          Less: Offsetting Receipts

          Net Outlays                                               $        7,788,348      $      (94,946)      $        7,311,017      $            (62,008)

                                       The accompanying notes are an integral part of these statements
AUDITED                                                                                                                               APPENDIX IV
                                                                                                                                       Page 13 of 66
                                                     U.S. Agency for International Development
                                                 CONSOLIDATED STATEMENT OF FINANCING
                                                  For the Year Ended September 30, 2003 and 2002
                                                                   (in thousands)
       Resources Used to Finance Activities:                                                                     2003                     2002
               Budgetary Resources Obligated
                   Obligations Incurred (Note 21)                                                                $10,087,687                 $9,086,729
                     Appropriations transferred to/from other agencies (net)                                       1,440,612                    117,337
                   Total Obligations Incurred                                                                     11,528,299                  9,204,066

                          Less: Spending authority from offsetting collections and recoveries (Note 20)           (1,279,197)               (1,147,155)
                             Spending authority transferred to/from other agencies (net)                             (52,961)                     3,503
                           Total Spending authority from offsetting collections and recoveries                    (1,332,158)               (1,143,652)
         Net Obligations                                                                                          10,196,141                  8,060,414
      Other Resources
       Donated and Credit Program Revenue                                                                          (170,456)                    (74,574)
       Imputed Financing From Costs Absorbed by Others                                                                13,902                      13,459
       Net other resources used to finance activities                                                              (156,554)                    (61,115)
      Total resources used to finance activities                                                                  10,039,587                  7,999,299
         Resources Used to Finance Items not Part of the Net Cost of Operations:
            Change in budgetary resources obligated for goods, services and benefits
           ordered but not yet provided                                                                           (1,318,994)               (1,111,255)
              Resources that fund expenses recognized in prior periods                                                      20                     (995)
               Budgetary offsetting collections and receipts that do not affect net cost of
             operations
                   Credit program collections which increase liabilities for loan
               guarantees or allowances for subsidy                                                                1,091,885                     959,754
                  Other                                                                                                 (6,057)                    6,275
             Resources that finance the acquisition of assets                                                           80,309                    33,413

                 Total resources used to finance items not part of net cost of operations                          (152,837)                  (112,808)
     Total resources used to finance net cost of operations                                                        9,886,750                  7,886,491
        Components of the Net Cost of Operations that will not Require or Generate
    Resources in the Current Period:
            Components Requiring or Generating Resources in Future Periods (Note 21):
                  Increase in annual leave liability                                                                      2,168                    1,206
                    Upward/Downward reestimates of credit subsidy expense                                                98,115                  (22,947)
                     Other                                                                                               36,435                   39,221
              Total components of net cost of operations that will require or generate resources in future
   periods                                                                                                              136,718                   17,480
        Components not Requiring or Generating Resources
                  Depreciation and Amortization                                                                           6,925                   10,525
                  Revaluation of assets or liabilities                                                                    3,133                   (2,056)
                     Other                                                                                           (39,961)                      4,919
               Total components of net cost of operations that will not require or generate resources
                                                                                                                     (29,903)                     13,388
        Total components of net cost of operations that will not require or generate resources
        in the current period                                                                                           106,815                   30,868
  Net Cost of Operations                                                                                     $     9,993,565      $           7,917,359




                                    The accompanying notes are an integral part of these statements
AUDITED                                                                                                                                                                                                 APPENDIX IV
                                                                                                                                                                                                         Page 14 of 66
                                                                                   U.S. Agency for International Development
                                                                                    CONSOLIDATING BALANCE SHEET
                                                                                       As of September 30, 2003 and 2002
                                                                                                 (in thousands)
                                                                  Credit Program                                           Revolving                                                Intra-Agency
                                                                                       Program Funds    Operating Funds                     Trust Funds       Other Funds                                   Total
                                                                      Funds                                                 Funds                                                   Eliminations
    ASSETS
          Intragovernmental
                                     Fund Balance with Treasury   $     1,345,880      $   12,673,983     $     183,798    $     3,484       $   23,253        $   (14,984)     $                   -   $     14,215,414
                    Accounts Receivable                                            -                -          1,134,074                -                 -                 -                      -           1,134,074
             Other Assets                                                          -           32,375               623                 -                 -                 -                      -                 32,998
                Total Intragovernmental                                 1,345,880          12,706,358          1,318,495         3,484           23,253            (14,984)                        -          15,382,486
                               Cash and Other Monetary Assets                 50                    -           240,362                 -                 -                 -                      -                240,412
              Accounts Receivable, Net                                   142,288               13,145             1,306                 -                 -          4,329                (94,755)                   66,313
                 Loans Receivable, Net                                  5,696,597                   -                  -                -                 -                 -                      -           5,696,597
                                 Inventory and Related Property                    -           17,089             6,938                 -                 -                 -                      -                 24,027
                    General Property, Plant, and Equipment, Net                    -            1,197            63,136                 -                 -                 -                      -                 64,333
                                     Advances and Prepayments               1,402             305,679            42,289                99           598                     -                      -                350,067
             Total Assets                                               7,186,217          13,043,468          1,672,526         3,583           23,851            (10,655)               (94,755)            21,824,235
             LIABILITIES                                                                                                                                                                           */
              Intragovernmental
              Accounts Payable                                              1,239              36,481            13,740                 -                 -        (24,161)                        -                 27,299
             Debt                                                          79,165                   -                  -                -                 -                 -                      -                 79,165
                    Due to U.S. Treasury                                5,669,725                   -                  -                -                 -                 -                      -           5,669,725
                 Other Liabilities                                          4,096                   -             6,417                 -                 -          4,330                         -                 14,843
               Total Intragovernmental                                  5,754,225              36,481            20,157              -                -            (19,831)                      -             5,791,032
              Accounts Payable                                            129,649           1,390,539           416,359            295              691                   -               (94,755)             1,842,778
               Loan Guarantee Liability                                 1,159,415                   -                 -                 -                 -                 -                      -           1,159,415
                    Federal Employees and Veteran's Benefits                    -                   -            27,400                 -                 -                 -                      -              27,400
                Other Liabilities                                         201,082                   -           277,588              -           23,411               9,176                      -               511,257
         Total Liabilities                                              7,244,371           1,427,020           741,504            295           24,102            (10,655)               (94,755)             9,331,882
                               Commitments and Contingencies
     NET POSITION
       Unexpended Appropriations                                           44,421          11,596,111           137,345                 -                 -                 -                      -          11,777,877
                 Cumulative Results of Operations                       (102,575)              20,337           793,677          3,288             (251)                    -                      -                714,476
          Total Net Position                                             (58,154)          11,616,448           931,022          3,288             (251)                    -                      -          12,492,353


                Total Liabilities and Net Position                $     7,186,217      $   13,043,468     $    1,672,526   $     3,583       $   23,851        $   (10,655)     $         (94,755)      $     21,824,235

                                                                  The accompanying notes are an integral part of these statements
AUDITED                                                                                                                                                               APPENDIX IV
                                                                                                                                                                        Page 15 of 66




                                                                                                                                                      Intra-Agency
                                                                            Credit       Program      Operating    Revolving    Trust Funds   Other   Eliminations      Total
 Goal
          Broad-Based Economic Growth and Agricultural Development
  1:
                                                      Intragovernmental       69,471        48,587       97,634            41             -       -         (1,094)         214,639
                                                          With the Public     50,006     3,350,615      165,112         1,479         1,962       -               -       3,569,174
                                                                    Total   119,477      3,399,202      262,746         1,520         1,962       -         (1,094)       3,783,813
                                                  Less earned revenues      (77,873)        (1,630)      (1,829)      (1,205)             -       -           1,349         (81,188)
                                                     Net Program Costs        41,604     3,397,572      260,917           315         1,962       -             255       3,702,625
 Goal
                          Strengthen Democracy and Good Governance
   2:
                                                      Intragovernmental              -      11,032       16,527             7             -       -           (140)          27,426
                                                          With the Public            -     919,754       25,697           251           109       -               -         945,811
                                                                    Total            -     930,786       42,224           258           109       -           (140)         973,237
                                                  Less earned revenues               -       (370)        (311)         (205)             -       -              15           (871)
                                                     Net Program Costs               -     930,416       41,913            53           109       -           (125)         972,366
 Goal
                  Human Capacity Built Through Education and Training
   3:
                                                      Intragovernmental              -       4,653       19,674             8             -       -           (123)          24,212
                                                          With the Public            -     276,688       30,681           299           129       -               -         307,797
                                                                    Total            -     281,341       50,355           307           129       -           (123)         332,009
                                                  Less earned revenues               -       (156)        (371)         (244)             -       -              13           (758)
                                                     Net Program Costs               -     281,185       49,984            63           129       -           (110)         331,251
 Goal
              Stabilizing World Population and Protecting Human Health
   4:
                                                      Intragovernmental              -      58,604      114,272            48             -       -           (877)         172,047
                                                          With the Public            -   1,816,397      177,677         1,738           750       -               -       1,996,562
                                                                    Total            -   1,875,001      291,949         1,786           750       -           (877)       2,168,609
                                                  Less earned revenues               -      (1,966)      (2,150)      (1,416)             -       -              90          (5,442)
                                                     Net Program Costs               -   1,873,035      289,799           370           750       -           (787)       2,163,167
 Goal
                   Protect the Environment for Long-Term Sustainability
   5:
                                                      Intragovernmental       87,960         5,308       25,893            11             -       -           (604)        118,568
                                                          With the Public     63,316       632,313       40,260           394           170       -               -        736,453
                                                                    Total   151,276        637,621       66,153           405           170       -           (604)        855,021
                                                  Less earned revenues      (98,599)         (179)        (487)         (320)             -       -           1,627        (97,958)
                                                     Net Program Costs        52,677       637,442       65,666            85           170       -           1,023        757,063
 Goal
                                     Promote Humanitarian Assistance
   6:
                                                      Intragovernmental            -        35,305       21,037             9             -       -           (286)          56,065
                                                          With the Public          -       976,899    1,035,480           318           137       -               -       2,012,834
                                                                    Total          -     1,012,204    1,056,517           327           137       -           (286)       2,068,899
                                                  Less earned revenues             -        (1,183)       (394)         (259)             -       -              30          (1,806)
                                                     Net Program Costs             -     1,011,021    1,056,123            68           137       -           (256)       2,067,093
                                               Net Costs of Operations        94,281     8,130,671    1,764,402           954         3,257       -               -       9,993,565



                                                   The accompanying notes are an integral part of these statements
AUDITED                                                                                                                                     APPENDIX IV
                                                                                                                                             Page 16 of 66
                                            U.S. Agency for International Development
                                        CONSOLIDATING STATEMENT OF NET POSITION
                                             For the Year Ended September 30, 2003
                                                          (in thousands)
                                                           Credit Program                     Operating       Revolving       Trust       Other
                                                                             Program Funds                                                            Total
                                                               Funds                           Funds           Funds          Funds       Funds

   Beginning Balances                                               5,922         9,894,918      738,958           4,242        (405)             -   10,643,635
     Prior period adjustments                                       1,690                 -               -               -           -           -          1,690

    Beginning Balances, as adjusted                                 7,612         9,894,918      738,958           4,242        (405)             -   10,645,325


      Budgetary Financing Sources:
           Appropriations Received                                 17,674         9,801,300      718,000                  -           -           -   10,536,974
          Appropriations transferred-in/out                        11,184           97,907         3,968                  -           -           -     113,059
           Other adjustments (recissions, etc)                      (343)          (47,007)       (4,447)                 -           -           -     (51,797)
         Appropriations used                                             -                -               -               -           -           -              -
       Nonexchange revenue                                               -                                                                                       -
         Donations and forfeitures of cash                               -                -       96,905                  -     3,411             -     100,316
        and cash equivalents
                 Transfers-in/out without reimbursement                  -                -    1,128,139                  -           -           -    1,128,139
                     Other budgetary financing sources                   -                -               -               -           -           -              -
                                                                                                                                                        -
          Other Financing Sources:                                                                                                                               -
                   Donations and forfeitures of property                 -                -               -               -           -           -              -
                 Transfers-in/out without reimbursement                  -                -               -               -           -           -              -
      Imputed financing from costs absorbed by others                    -                -       13,902                  -           -           -         13,902
         Other                                                           -                -               -               -           -           -              -

     Total Financing Sources                                       28,515         9,852,200    1,956,467                  -     3,411             -   11,840,593


       Net Cost of Operations                                      94,281         8,130,671    1,764,402            954         3,257             -    9,993,565



     Ending Balances                                              (58,154)       11,616,447      931,023           3,288        (251)             -   12,492,353




                                      The accompanying notes are an integral part of these statements
AUDITED                                                                                                                                 APPENDIX IV
                                                                                                                                         Page 17 of 66
                                 U.S. Agency for International Development
                         CONSOLIDATING STATEMENT OF BUDGETARY RESOURCES
                                  For the Year Ended September 30, 2003
                                                            Credit                                                                      Allocations
                                                                       Program       Operating    Revolving    Trust         Credit-
                                                           Program                                                                       to Other           Total
                                                                        Funds         Funds        Funds       Funds       Financing
                                                            Funds                                                                        Agencies

                                 Budgetary Resources:

                                       Budget Authority      68,858    8,125,623       721,968             -    9,094         62,886      1,438,832       10,427,261
            Unobligated Balances - Beginning of Period      121,635    1,309,465        39,446        3,262     1,936        798,979        114,837        2,389,560
          Spending Authority from Offsetting Collections    872,335       5,002          5,364        3,649            -     219,871            202        1,106,423
                   Recoveries of Prior-Year Obligations      40,020      92,113         21,254            1     1,122         14,180          4,084         172,774
      Temporarily Not Available Pursuant to Public Law             -             -            -            -        -               -                 -             -
                             Permanently Not Available     (660,571)    (47,007)        (4,447)            -           -        (465)          (748)       (713,238)

                            Total Budgetary Resources       442,277    9,485,196       783,584        6,912    12,152      1,095,451      1,557,207       13,382,780

                        Status of Budgetary Resources:
                                   Obligations Incurred      73,770    7,699,567       746,200        4,178    10,157        113,832      1,439,983       10,087,687
                                  Unobligated Balances      368,050    1,780,688        35,607        2,734     1,995        981,619        (16,192)       3,154,501
                                  Unobligated Balances          457       4,942          1,777             -           -            -       133,416         140,592

                   Total Status of Budgetary Resources      442,277    9,485,197       783,584        6,912    12,152      1,095,451      1,557,207       13,382,780

                 Relationship of Obligations to Outlays:
            Obligated Balance, Net, Beginning of Period      23,909    8,968,661       178,099        1,007    15,695         26,868        244,370        9,458,609
                    Obligated Balance, Transferred, Net       1,819              -            -            -        -               -                 -        1,819
                  Obligated Balance, Net, End of Period      (5,842)   9,082,772       175,584          751    21,259          1,596      1,298,721       10,574,841
                                               Outlays::
                                        Disbursements        65,310    7,495,577       731,111        4,434     3,472        113,597        380,995        8,794,496
                                                                                                                                                          (1,101,094
                                            Collections    (872,336)     (7,408)        (9,014)      (3,649)           -    (208,543)          (144)               )
                              Less: Offsetting Receipts            -             -            -            -        -               -                 -             -



                                            Net Outlays    (807,026)   7,488,169       722,097          785     3,472        (94,946)       380,851        7,693,402




                                The accompanying notes are an integral part of these statements
AUDITED                                                                                                                                                                                          APPENDIX IV
                                                                                                                                                                                                  Page 18 of 66
                                                                                      U.S. Agency for International Development
                                                                                  CONSOLIDATING STATEMENT OF FINANCING
                                                                                   For the Year Ended September 30, 2003 and 2002
                                                                                                    (in thousands)
                                                                                                           Credit        Program         Operating       Revolving       Trust           Other          Total
           Resources Used to Finance Activities:
                Budgetary Resources Obligated
                Obligations Incurred                                                                           187,593     9,139,559          746,199           4,179       10,157                -     10,087,687
                             Appropriations transferred to/from other agencies (net)                                 -       255,488        1,185,124               -             -               -       1,440,612
             Total Obligations Incurred                                                                        187,593     9,395,047        1,931,323           4,179       10,157                -     11,528,299
                        Less: Spending authority from offsetting collections and recoveries                (1,146,406)     (101,402)          (26,617)        (3,650)       (1,122)               -     (1,279,197)
                                Spending authority transferred to/from other agencies (net)                          -          4,142         (57,103)              -             -               -         (52,961)
                         Total Spending authority from offsetting collections and recoveries               (1,146,406)       (97,260)         (83,720)        (3,650)       (1,122)               -     (1,332,158)
          Net Obligations                                                                                    (958,813)     9,297,787        1,847,603             529         9,035               -     10,196,141
       Other Resources
                   Donated and Credit Program Revenue                                                        (176,472)         2,406            3,650            (40)                -            -      (170,456)
                            Imputed Financing From Costs Absorbed by Others                                          -             -           13,902               -                -            -         13,902
                Net other resources used to finance activities                                               (176,472)         2,406           17,552            (40)                -            -      (156,554)
         Total resources used to finance activities                                                        (1,135,285)     9,300,193        1,865,155            489             9,035            -     10,039,587
            Resources Used to Finance Items not Part of the Net Cost of Operations:
              Change in budgetary resources obligated for goods, services and benefits
          ordered but not yet provided                                                                         40,280     (1,157,115)       (196,907)            425        (5,677)               -     (1,318,994)
                      Resources that fund expenses recognized in prior periods                                      -               -              20              -              -               -              20
              Budgetary offsetting collections and receipts that do not affect net cost of                          -               -               -              -              -               -
           operations                                                                                               -               -               -              -              -               -
    Credit program collections which increase liabilities for loan
                           guarantees or allowances for subsidy                                             1,091,845                -               -            40              -               -      1,091,885
          Other                                                                                                      -         (2,406)         (3,651)             -              -               -         (6,057)
                        Resources that finance the acquisition of assets                                         (892)         (7,695)         88,896              -              -               -         80,309
                                Total resources used to finance items not part of net cost of operations    1,131,233     (1,167,216)       (111,642)            465        (5,677)               -      (152,837)
                  Total resources used to finance net cost of operations                                       (4,052)      8,132,977       1,753,513            954          3,358               -      9,886,750
                          Components of the Net Cost of Operations that will not Require or Generate
               Resources in the Current Period:
                                    Components Requiring or Generating Resources in Future Periods:
                                 Increase in annual leave liability                                               215                -          2,054                -           (101)            -          2,168
                                              Upward/Downward reestimates of credit subsidy expense            98,115                -              -                -               -            -         98,115
          Other                                                                                                     -                -         36,435                -               -            -         36,435
   Total components of net cost of operations that will require or generate resources in future periods
                                                                                                               98,330                -         38,489                -           (101)            -        136,718
                   Components not Requiring or Generating Resources
                               Depreciation and Amortization                                                        -             618           6,307                -               -            -           6,925
                           Revaluation of assets or liabilities                                                     -               -           3,133                -               -            -           3,133
         Other                                                                                                      3         (2,924)        (37,040)                -               -            -        (39,961)
                 Total components of net cost of operations that will not require or generate resources
                                                                                                                    3         (2,306)        (27,600)                -               -            -        (29,903)
                                  Total components of net cost of operations that will not require or
                      generate resources in the current period                                                 98,333         (2,306)          10,889              -             (101)            -        106,815
        Net Cost of Operations                                                                                 94,281      8,130,671        1,764,402            954             3,257            -      9,993,565



                                                                        The accompanying notes are an integral part of these statements
AUDITED                                                                                APPENDIX IV
                                                                                        Page 19 of 66

USAID FY 2003 FOOTNOTES TO THE FINANCIAL STATEMENTS

NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

A. Basis of Presentation

These financial statements report USAID’s financial position and results of operations. They
have been prepared using USAID’s books and records in accordance with Agency accounting
policies, the most significant of which are summarized in this note. The statements are presented
in accordance with the applicable form and content requirements of the Office of Management
and Budget (OMB) Bulletin 01-09, Form and Content of Agency Financial Statements, and the
Government Management Reform Act of 1994.

USAID accounting policies follow generally accepted accounting principles for the Federal
government, as recommended by the Federal Accounting Standards Advisory Board (FASAB).
The FASAB has been recognized by the American Institute of Certified Public Accountants
(AICPA) as the official accounting standard set for the Federal government. These standards
have been agreed to, and published by the Director of the Office of Management and Budget, the
Secretary of the Treasury, and the Comptroller General.

B. Reporting Entity

Established in 1961 by President John F. Kennedy, USAID is the independent U.S. Government
agency that provides economic development and humanitarian assistance to advance United
States economic and political interests overseas.

Programs

The financial statements reflect the various program activities, shown by appropriation in the
financial statements, which include such programs as the Iraq Relief and Reconstruction Fund,
Economic Support Fund, Development Assistance, Assistance for the New Independent States of
the Former Soviet Union, Special Assistance Initiatives, International Disaster Assistance, Child
Survival and Disease, Central America and the Caribbean Emergency Disaster Recovery Fund,
Transition Initiatives, and Direct and Guaranteed Loan Programs. This classification is
consistent with the Budget of the United States.

Iraq Relief and Reconstruction Fund

This new fund supports necessary expenses related to providing humanitarian assistance in and
around Iraq and to carrying out the purposes of the Foreign Assistance Act of 1961 for
rehabilitation and reconstruction in Iraq. These include costs of: (1) water/sanitation
infrastructure; (2) feeding and food distribution; (3) supporting relief efforts related to refugees,
internally displaced persons, and vulnerable individuals, including assistance
AUDITED                                                                             APPENDIX IV
                                                                                     Page 20 of 66

USAID FY 2003 FOOTNOTES TO THE FINANCIAL STATEMENTS

NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES - Continued

for families of innocent Iraqi civilians who suffer losses as a result of military operations; (4)
electricity; (5) healthcare; (6) telecommunications; (7) economic and financial policy; (8)
education; (9) transportation; (10) rule of law and governance; (11) humanitarian de-mining; and
(12) agriculture.

Economic Support Fund

Programs funded through this account provide economic assistance to select countries in support
of efforts to promote stability and U.S. security interests in strategic regions of the world.

Development Assistance

This program provides economic resources to developing countries with the aim of bringing the
benefits of development to the poor. The program promotes broad-based, self-sustaining
economic growth and supports initiatives intended to stabilize population growth, protect the
environment and foster increased democratic participation in developing countries. The program
is concentrated in those areas in which the United States has special expertise and which promise
the greatest opportunity for the poor to better their lives.


Assistance for the New Independent States of the Former Soviet Union

This account provides funds for a program of assistance to the independent states that emerged
from the former Soviet Union. These funds support U.S. foreign policy goals of consolidating
improved U.S. security; building a lasting partnership with the New Independent States; and
providing access to each other’s markets, resources, and expertise.

Special Assistance Initiatives

This program provides funds to support special assistance activities. The majority of funding for
this program was for democratic and economic restructuring in Central and Eastern European
countries consistent with the objectives of the Support for East European Democracy (SEED)
Act. All SEED Act programs support one or more of the
following strategic objectives: promoting broad-based economic growth with an emphasis on
privatization, legal and regulatory reform and support for the emerging private sector;
encouraging democratic reforms; and improving the quality of life including protecting the
environment and providing humanitarian assistance.
AUDITED                                                                             APPENDIX IV
                                                                                     Page 21 of 66

USAID FY 2003 FOOTNOTES TO THE FINANCIAL STATEMENTS

NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES - Continued

International Disaster Assistance

Funds for the International Disaster Assistance Program provide relief, rehabilitation, and
reconstruction assistance to foreign countries struck by disasters such as famines, floods,
hurricanes and earthquakes. The program also provides assistance in disaster preparedness, and
prevention and mitigation.


Child Survival and Disease

This program provides economic resources to developing countries to support programs to
improve infant and child nutrition, with the aim of reducing infant and child mortality rates; to
reduce HIV transmission and the impact of the HIV/AIDS pandemic in developing countries; to
reduce the threat of infectious diseases of major public health importance such as polio, and
malaria; and to expand access to quality basic education for girls and women.


Central America and the Caribbean Emergency Disaster Recovery Fund

This program was established by a FY 1999 emergency supplemental bill and is for necessary
expenses to provide relief for natural disasters in Central America, South America, and
Columbia.


Transition Initiatives

This account funds humanitarian programs that provide post-conflict assistance to victims of
natural and man-made disasters. Until FY 2001, this type of assistance was funded under the
International Disaster Assistance account.


Direct and Guaranteed Loans:

       Direct Loan Program

       These loans are authorized under Foreign Assistance Acts, various predecessor agency
       programs, and other foreign assistance legislation. Direct Loans are issued in both U.S.
       dollars and the currency of the borrower. Foreign currency loans made “with
       maintenance of value” place the risk of currency devaluation on the borrower, and are
       recorded in equivalent U.S. dollars. Loans made “without maintenance of value” place
       the risk of devaluation on the U.S. Government, and are recorded in the foreign currency
       of the borrower.
AUDITED                                                                          APPENDIX IV
                                                                                  Page 22 of 66

USAID FY 2003 FOOTNOTES TO THE FINANCIAL STATEMENTS

NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES - Continued

     Urban and Environmental Program

     The Urban and Environmental (UE) program, formerly the Housing Guarantee Program,
     extends guaranties to U.S. private investors who make loans to developing countries to
     assist them in formulating and executing sound housing and community development
     policies that meet the needs of lower income groups.

     Micro and Small Enterprise Development Program

     The Micro and Small Enterprise Development (MSED) Program supports private sector
     activities in developing countries by providing direct loans and loan guarantees to support
     local micro and small enterprises.

     Israeli Loan Guarantee Program

     Congress enacted the Israeli Loan Guarantee Program in Section 226 of the Foreign
     Assistance Act to support the costs for immigrants resettling to Israel from the former
     Soviet Union, Ethiopia, and other countries. Under this program, the U.S. Government
     guaranteed the repayment of up to $10 billion in loans from commercial sources, to be
     borrowed in $2 billion annual increments. Borrowing was completed under the program
     during Fiscal Year 1999, with approximately $9.2 billion being guaranteed. Guarantees
     are made by USAID on behalf of the U.S. Government, with funding responsibility and
     basic administrative functions guarantees for Israel, not to exceed $9 billion and $1.3
     billion in guarantees were resting with USAID. In FY 2003, Congress authorized a
     second portfolio of loan issued under this portfolio during FY 2003.

     Ukraine Guarantee Program

     The Ukraine Export Credit Insurance Program was established with the support of the
     Export-Import Bank of the U.S. to assist Ukrainian importers of American goods. The
     program commenced operations in Fiscal Year 1996 and expired in Fiscal Year 1999.

     Development Credit Authority

     The first obligations for USAID’s new Development Credit Authority (DCA) were made
     in FY 1999. DCA allows missions and other offices to use loans and loan guarantees to
     achieve their development objectives when it can be shown that: 1) the project generates
     enough revenue to cover the debt service including USAID fees, 2) there is at least 50%
     risk-sharing with a private-sector institution, and 3) the DCA guarantee addresses a
     financial market failure in-country and
AUDITED                                                                             APPENDIX IV
                                                                                     Page 23 of 66

USAID FY 2003 FOOTNOTES TO THE FINANCIAL STATEMENTS

NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES - Continued

       does not “crowd-out” private sector lending. DCA can be used in any sector and by any
       USAID operating unit whose project meets the DCA criteria. DCA projects are approved
       by the Agency Credit Review Board and the Chief Financial Officer.

Fund Types

The accompanying consolidated financial statements for USAID include the accounts of all
funds under USAID’s control. Most of the fund accounts relate to general fund appropriations.
USAID also has special fund, revolving fund, trust fund, deposit funds, capital investment fund,
receipt account, and budget clearing accounts.

General fund appropriations and the Special fund are used to record financial transactions under
Congressional appropriations or other authorization to spend general revenue.

Revolving funds are established by law to finance a continuing cycle of operations, with receipts
derived from such operations usually available in their entirety for use by the fund without
further action by Congress.

Trust funds are credited with receipts generated by the terms of the trust agreement or statute. At
the point of collection, these receipts are unavailable, depending upon statutory requirements, or
available immediately.

The capital investment fund contains no year funds to provide the Agency with greater flexibility
to manage investments in technology systems and facility construction that the annual
appropriation for Operating Expenses does not allow.

Deposit funds are established for (1) amount received for which USAID is acting as a fiscal
agent or custodian, (2) unidentified remittances, (3) monies withheld from payments for goods or
services received, and (4) monies held waiting distribution on the basis of legal determination.

C. Basis of Accounting

Transactions are recorded on both an accrual and budgetary basis. Under the accrual basis,
revenues are recognized when earned and expenses are recognized when a liability is incurred,
without regard to receipt or payment of cash. Budgetary accounting facilitates compliance with
legal constraints on, and controls of, the use of federal funds.

The accompanying Balance Sheet, Statement of Net Cost, and Statement of Changes in Net
Position have been prepared on an accrual basis. The Statement of Budgetary Resources has
been prepared in accordance with budgetary accounting rules. Finally, the
AUDITED                                                                             APPENDIX IV
                                                                                     Page 24 of 66

USAID FY 2003 FOOTNOTES TO THE FINANCIAL STATEMENTS

NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES Continued

Statement of Financing has been prepared to reconcile budgetary to financial (proprietary)
accounting information.

D. Budgets and Budgetary Accounting

The components of USAID’s budgetary resources include current budgetary authority (that is,
appropriations and borrowing authority) and unobligated balances remaining from multi-year
and no-year budget authority received in prior years. Budget authority is the authorization
provided by law to enter into financial obligations that result in immediate or future outlays of
federal funds. Budgetary resources also include reimbursement and other income (that is,
spending authority from offsetting collections credited to an appropriation of fund account) and
adjustments (that is, recoveries of prior year obligations).

Unobligated balances associated with appropriations that expire at the end of the fiscal year
remain available for obligation adjustments, but not new obligations, until that account is
canceled. When accounts are canceled five years after they expire, amounts are not available for
obligations or expenditure for any purpose and are returned to Treasury.

Pursuant to Section 511 of USAID’s Appropriations Act for certain purposes under the Foreign
Assistance Act of 1961, as amended, shall remain available until expended if such funds are
initially obligated within their period of availability.

E. Revenues and Other Financing Sources

USAID receives the majority of its funding through congressional appropriations --annual, multi-
year, and no-year appropriations -- that may be used within statutory limits. Appropriations are
recognized as revenues at the time the related program or administrative expenses are incurred.
Appropriations expended for capitalized property and equipment are not recognized as expenses.
In addition to funds warranted directly to
USAID, the agency also receives allocation transfers from the Commodity Credit Corporation
and the Department of State.

Additional financing sources for USAID’s various credit programs and trust funds include
amounts obtained through collection of guaranty fees, interest income on rescheduled loans,
penalty interest on delinquent balances, permanent indefinite borrowing authority from U.S.
Treasury, proceeds from the sale of overseas real property acquired by USAID, and advances
from foreign governments and international organizations.
AUDITED                                                                              APPENDIX IV
                                                                                      Page 25 of 66

USAID FY 2003 FOOTNOTES TO THE FINANCIAL STATEMENTS

NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES - Continued

Revenues are recognized as financing sources to the extent that they were payable to USAID
from other agencies, other governments and the public in exchange for goods and services
rendered to others.

F. Fund Balances with the U.S. Treasury

Cash receipts and disbursements are processed by the U.S. Treasury. The balances with
Treasury are primarily appropriated funds that are available to pay current liabilities and finance
authorized purchase commitments, but they also include revolving, deposit, and trust funds.

G. Foreign Currency

The Direct Loan Program has foreign currency funds, which are used to disburse loans in certain
countries. Those balances are reported at the U.S. dollar equivalents using the exchange rates
prescribed by the U.S. Treasury. A gain or loss on translation is recognized for the change in
valuation of foreign currencies at year-end.

H. Accounts Receivable

Accounts receivable consist of amounts due mainly from foreign governments but also from
other Federal agencies and private organizations. USAID regards amounts due from other
Federal agencies as 100 percent collectible. The Agency establishes an
allowance for uncollectible accounts receivable for non-loan or revenue generating sources that
have not been collected for a period of over one year.

I. Loans Receivable

Loans are accounted for as receivables after funds have been disbursed. For loans obligated
before October 1, 1991 (the pre-credit reform period), loan principal, interest, and penalties
receivable are reduced by an allowance for estimated uncollectible amounts. The allowance is
estimated based on a net present value method prescribed by OMB that takes into account
country risk and projected cash flows.

For loans obligated on or after October 1, 1991, the loans receivable are reduced by an allowance
equal to the net present value of the cost to the USG of making the loan. This cost, known as
“subsidy”, takes into account all cash inflows and outflows associated with the loan, including
the interest rate differential between the loans and Treasury borrowing, the estimated
delinquencies and defaults net of recoveries, and offsets from fees and other estimated cash
flows. This allowance is re-estimated when necessary and changes reflected in the operating
statement.
AUDITED                                                                               APPENDIX IV
                                                                                       Page 26 of 66

USAID FY 2003 FOOTNOTES TO THE FINANCIAL STATEMENTS

NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES - Continued

Loans have been made in both U.S. dollars and foreign currencies. Loans extended in foreign
currencies can be with or without “Maintenance of Value” (MOV). Those with MOV place the
currency exchange risk upon the borrowing government; those without MOV place the risk on
USAID. Foreign currency exchange gain or loss is recognized on those loans extended without
MOV, and reflected in the net credit programs receivable balance.

Credit program receivables also include origination and annual fees on outstanding guarantees,
interest on rescheduled loans and late charges. Claims receivables (subrogated and rescheduled)
are due from foreign governments as a result of defaults for pre-1992 guaranteed loans.
Receivables are stated net of an allowance for uncollectible accounts, determined using an OMB
approved net present value default methodology.

While estimates of uncollectible loans and interest are made using methods prescribed by OMB,
the final determination as to whether a loan is collectible is also affected by actions of other U.S.
Government agencies.

J. Advances and Prepayments

Funds disbursed in advance of incurred expenditures are recorded as advances. Most advances
consist of funds disbursed under letters of credit to contractors and grantees. The advances are
liquidated and recorded as expenses upon receipt of expenditure reports from the recipients.

K. Inventory and Related Property

USAID’s inventory and related property is comprised of operating materials and supplies. Some
operating materials and supplies are held for use and consist mainly of computer paper and other
expendable office supplies not in the hands of the user. USAID also has materials and supplies
in reserve for foreign disaster assistance stored at strategic sites around the world. These consist
of tents, vehicles, and water purification units. The Agency also has birth control supplies stored
at several sites.

USAID’s office supplies are deemed items held for use because they are tangible personal
property to be consumed in normal operations. Agency supplies held in reserve for future use
are not readily available in the market, or there is more than a remote chance that the supplies
will be needed, but not in the normal course of operations. Their
valuation is based on cost and they are not considered “held for sale”. USAID has no supplies
categorizable as excess, obsolete, or unserviceable operating materials and supplies.
AUDITED                                                                              APPENDIX IV
                                                                                      Page 27 of 66

USAID FY 2003 FOOTNOTES TO THE FINANCIAL STATEMENTS

NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES - Continued

L. Property, Plant and Equipment

USAID capitalizes all property, plant and equipment that has an acquisition cost of $25,000 or
greater and a useful life of two years or more. Acquisitions that do not meet these criteria are
recorded as operating expenses. Assets are capitalized at historical cost and depreciated using the
straight-line method. Real property is depreciated over 20 years, nonexpendable personal
property is depreciated over 3 to 5 years, and capital leases are depreciated according to the
terms of the lease. The Agency operates land, buildings, and equipment that are provided by the
General Services Administration. Rent for this property is expensed. Internal use software that
has development costs of $300,000 or greater is capitalized. Deferred maintenance amounts are
immaterial with respect to the financial statements.

M. Liabilities

Liabilities represent the amount of monies or other resources that are likely to be paid by USAID
as the result of transactions or events that have already occurred. However, no liability can be
paid by the Agency without an appropriation or borrowing authority. Liabilities for which an
appropriation has not been enacted are therefore classified as liabilities not covered by budgetary
resources (unfunded liabilities), and there is no certainty that the appropriations will be enacted.
Also, these liabilities can be abrogated by the U.S. Government, acting in its sovereign capacity.

N. Liabilities for Loan Guarantees

The Credit Reform Act (CRA) of 1990, which became effective on October 1, 1991, has
significantly changed the manner in which USAID’s loan programs finance their activities. The
main purpose of CRA was to more accurately measure the cost of Federal credit programs and to
place the cost of such programs on a budgetary basis equivalent to other Federal spending.
Consequently, commencing in fiscal 1992, USAID cannot make new loans or guarantees without
an appropriation available to fund the cost of making the loan or guarantee. This cost is known as
“subsidy”.

For USAID’s loan guarantee programs, when guarantee commitments are made, an obligation
for subsidy cost is recorded in the program account. This cost is based on the net present value
of the estimated net cash outflows to be paid by the Program as a result of the loan guarantees,
except for administrative costs, less the net present value of all cash inflows to be generated from
those guarantees. When the loans are disbursed, the subsidy cost is disbursed from the program
account to a financing account.
AUDITED                                                                               APPENDIX IV
                                                                                       Page 28 of 66

USAID FY 2003 FOOTNOTES TO THE FINANCIAL STATEMENTS

NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES - Continued

For loan guarantees made before the CRA (pre-1992), the liability for loan guarantees represents
an unfunded liability. Footnote 5 presents the unfunded amounts separate from the post-1991
liabilities. The amount of unfunded liabilities also represents a future funding requirement to for
USAID. The liability is calculated using a reserve methodology that is similar to OMB
prescribed method for post-1991 loan guarantees.

O. Annual, Sick, and Other Leave

Annual leave is accrued as it is earned and the accrual is reduced as leave is taken. Each year,
the balance in the accrued annual leave account is adjusted to reflect current pay rates. To the
extent that current or prior year appropriations are not available to fund annual leave earned but
not taken, funding will be obtained from future financing sources. Sick leave and other types of
leave are expensed as taken.

P. Retirement Plans and Post Employment Benefits

USAID recognizes its share of the cost of providing future pension benefits to eligible employees
over the period of time the employees provide the related services. The pension expense
recognized in the financial statements equals the current service cost for USAID employees for
the accounting period less the amount contributed by the
employees. The measurement of the service cost requires the use of an actuarial cost method and
assumptions. OPM administers these benefits and provides the factors that USAID applies to
report the cost. The excess of the pension expense over the amount contributed by USAID and
employees represents the amount being financed directly through the Civil Service Retirement
and Disability Fund administered by OPM. This cost is considered imputed cost to USAID.

USAID recognizes a current-period expense for the future cost of post retirement health benefits
and life insurance for its employees while they are still working. USAID accounts for and
NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES – Continued

reports this expense in its financial statements in a manner similar to that used for pensions, with
the exception that employees and USAID do not make contributions to fund these future
benefits.

Federal employee benefit costs paid by OPM and imputed by USAID are reported on the
Statements of Net Position and Financing and are also included as a element of net cost by goal
on the Statement of Net Cost.

Q. Net Position

Net position is the residual difference between assets and liabilities. It is composed of
unexpended appropriations and cumulative results of operations.
AUDITED                                                                               APPENDIX IV
                                                                                       Page 29 of 66

USAID FY 2003 FOOTNOTES TO THE FINANCIAL STATEMENTS

NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES - Continued

•    Unexpended appropriations are the portion of the appropriations represented by undelivered
     orders and unobligated balances.

•    Cumulative results of operations are also part of net position. This account reflects the net
     difference between (1) expenses and losses and (2) financing sources, including
     appropriations, revenues and gains, since the inception of the activity.


R. Non-entity Assets

Non-entity fund balances are amounts in Deposit Fund accounts. These include such items as:
funds received from outside sources where the government acts as fiscal agent, monies the
government has withheld awaiting distribution based on legal determination, and unidentified
remittances credited as suspense items outside the budget. For USAID, non-entity assets are
minimal in amount and as reflected in Note 3, comprised solely of accounts receivables, net of
allowances.

S. Program Costs

Program costs are presented on the Statement of Net Cost by agency goal. The six agency goals
that support USAID objectives are:

1.   Broad-based economic growth and agricultural development encouraged
2.   Human capacity built through education and training
3.   Global environment protected
4.   World population stabilized and human health protected
5.   Democracy and good governance strengthened
6.   Lives saved, suffering associated with natural or man-made disasters reduced, and conditions
     necessary for political and/or economic development re-established

Mission related program expenses by goal area are obtained from the Mission Accounting and
Control system (MACS). USAID/Washington program expenses by goal area are obtained
directly from Phoenix. A cost allocation model is used to distribute Management Bureau
operating costs to specific goals. Expenses related to Credit Reform and revolving funds are
directly applied to specific agency goals based on their objectives. Trust funds and remaining
operating expenses are allocated based on established program and operating ratios.
AUDITED                                                                                                           APPENDIX IV
                                                                                                                   Page 30 of 66



USAID FY 2003 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 2. FUND BALANCES WITH TREASURY (In Thousands)


Fund Balances with Treasury as of September 30, 2003 and 2002 consisted of the following:


Fund Balances                                                            2003                  2002


Trust Funds                                                                  $23,253              $17,631
Revolving Funds                                                            1,312,955              948,819
Appropriated Funds                                                        12,894,164           10,947,817
Other Funds                                                                 (14,958)              (16,295)



Total                                                                   $14,215,414          $11,897,972


Status of Fund Balance:
                                                                         2003                  2002
Unobligated Balance
     Available                                                            $3,260,019           $2,264,796
     Unavailable                                                                7,294              14,487
Obligated Balance Not Yet Disbursed                                       10,948,101            9,618,689

Total                                                                   $14,215,414          $11,897,972




As of September 30, 2003 there was a cash reconciliation difference of $34.6 million between USAID and the Department of
Treasury’s Fund Balances. The difference as of September 30, 2002 was $45.1 million. For FY 2003 and FY 2002 reporting
purposes, USAID adjusted its fund balance downward by these differences to equal the Department of Treasury’s fund balance. By
adjusting USAID’s fund balance to equal Treasury’s fund balance, there is consistency between various published reports. Also,
based on past experience, the Department of Treasury’s balances are more accurate and the differences are usually cleared when
USAID processes the required disbursements.




The $34.6 million cash reconciliation difference was posted to separate Fund Balance sub-accounts and the cash differences
remain identified as such. USAID is currently performing a reconciliation of the $34.6 million total amount in these accounts and will
make adjustments accordingly.
AUDITED                                                                                                    APPENDIX IV
                                                                                                            Page 31 of 66



USAID FY 2003 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 3. ACCOUNTS RECEIVABLE, NET (In Thousands)




The primary components of USAID’s accounts receivable as of September 30, 2003 and 2002 were as follows:


                                                            Receivable       Allowance         Receivable       Receivable
                                                              Gross           Accounts            Net              Net
                                                                                                  2003            2002



Entity
                 Intragovernmental
                    Appropriation Reimbursements
                       and other Accounts Receivable
                       from Federal Agencies                        $209         N/A                     $209            $543
                    Disbursing Authority
                       Receivable from USDA                    1,133,865         N/A              1,133,865         495,826

                 Total Intragovernmental                       1,134,074         N/A              1,134,074         496,369


                    Accounts Receivable                           71,163           (9,180)           61,983          29,792



                 Total Entity                                  1,205,237           (9,180)                          526,161


Total Non-Entity                                                   4,651               (321)            4,330         1,324



Total Receivables                                             $1,209,888          ($9,501)           $4,330        $527,485




Reconciliation of Uncollectible Amounts (Allowance Accounts)


                                                                    2003               2002
Beginning Balance                                                $14,346          $13,090
Additions                                                          1,636               4,444
Reductions                                                        (6,481)          (3,188)

Ending Balance                                                    $9,501          $14,346
AUDITED                                                                                                             APPENDIX IV
                                                                                                                     Page 32 of 66

USAID FY 2003 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 3. ACCOUNTS RECEIVABLE, NET (In Thousands) - Continued




Entity Intragovernmental accounts receivable consist of amounts due from other U.S. Government agencies. No allowance has
been established for the intragovernmental accounts receivable, which are considered to be 100 percent collectible. Disbursing
Authority Receivable from USDA consists of obligational authority from the U.S. Department of Agriculture’s Commodity Credit
Corporation. The authority is for payment of transportation costs incurred by USAID associated with the shipment of Title II and III
commodities; Farmer-to-Farmer Technical Assistance Programs; and for assistance to private voluntary organizations,
cooperatives, and international organizations. Collections against this receivable are realized when USAID requests a transfer of
funds from USDA to cover incurred expenses.




All other entity accounts receivable consist of amounts managed by missions or USAID/Washington. These receivables consist of
non-program related receivables such as overdue advances, unrecovered advances, audit findings, and any interest related to
these types of receivables. A 100 percent allowance for uncollectible amounts is estimated for governmental accounts receivable
which are more that one year past due. Accounts receivable from missions are collected and recorded to the respective
appropriation.



Interest receivable is calculated separately and there is no interest included in the accounts receivable listed above.
AUDITED                                                                                                        APPENDIX IV
                                                                                                                Page 33 of 66



USAID FY 2003 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 4. ADVANCES AND PREPAYMENTS (In Thousands)


Advances and Prepayments as of September 30, 2003 and 2002 consisted of the following:


                                                                          2003                       2002
Intragovernmental


   Advances to
      Federal Agencies                                                            $32,998                    $46,527

Total Intragovernmental                                                            32,998                     46,527


   Advances to Contractors/                                                       290,433                    252,639
      Grantees
   Travel Advances                                                                  1,763                      2,240
   Advances to Host Country                                                        38,785                     53,988
       Governments
       and Institutions


   Prepayments                                                                      5,661                      7,932
   Advances, Other                                                                 13,425                     12,963



Total Advances and Prepayments                                                   $383,065                   $376,289




Advances to Host Country Governments and Institutions represent amounts advanced by USAID missions to host country
governments and other in-country organizations, such as educational institutions and voluntary organizations. Other Advances
consist primarily of amounts advanced for living quarters and home service.
AUDITED                                                                                                        APPENDIX IV
                                                                                                                Page 34 of 66



USAID FY 2003 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 5. CASH AND OTHER MONETARY ASSETS (In Thousands)




Cash and Other Monetary Assets as of September 30, 2003 and 2002 are as follows:


Cash and Other Monetary Assets                                                          2003                2002
   Imprest Fund- Headquarters                                                                    $140              $0
   UE and Micro and Small                                                                          50              50
      Enterprise Fund Cash w/Fiscal Agent
   Foreign Currencies                                                                          240,222       262,038

Total Cash and Other Monetary Assets                                                        $240,412       $262,088




USAID has imprest funds in various overseas locations. These funds are provided by the Department of State overseas U.S.
Disbursing Officers to which USAID is liable for any shortages. USAID’s cumulative balance of the Department of State provided
imprest funds was $ 4.9 million in FY 2003 and $4.1 million in FY 2002. These imprest funds are not included in USAID’s Balance
Sheet.




Foreign Currencies are related to Foreign Currency Trust Funds and this amounted to $ 240.2 million in FY 2003 and $262 million in
FY 2002. USAID does not have any non-entity cash or other monetary assets.
AUDITED                                                                                                                                     APPENDIX IV
                                                                                                                                             Page 35 of 66


USAID FY 2003 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 6. LOANS RECEIVABLE AND LIABILITIES FOR LOAN GUARANTEES
(In Thousands)
USAID operates the following loan and/or loan guarantee programs:

       Direct Loan Program (Direct Loan)
       Urban and Environmental Program (UE)
       Micro and Small Enterprise Development Program (MSED)
       Ukraine Export Insurance Credit Program (Ukraine)
       Israel Loan Guarantee Program (Israel Loan)
       Development Credit Authority Program (DCA)



Direct loans resulting from obligations made prior to FY 1992 are reported net of allowance for estimated uncollectible loans. Estimated losses from defaults on loan
guarantees resulting from obligations made prior to FY 1992 are reported as a liability.




The Credit Reform Act of 1990 prescribes an alternative method of accounting for direct loans and guarantees resulting from obligations made after FY 1991. Subsidy
cost, which is the net present value of the cash flows (i.e. interest rates, interest supplements, estimated defaults, fees, and other cash flows) associated with direct
loans and guarantees, is required by the Act to be recognized as an expense in the year in which the direct loan or guarantee is disbursed. Subsidy cost is calculated
by agency program offices prior to obligation using a model prescribed by the Office of Management and Budget (OMB). Subsidy relating to existing loans and
guarantees is generally required to be reestimated on an annual basis to adjust for changes in risk and interest rate assumptions. Direct loans are reported net of an
allowance for this subsidy cost (allowance for subsidy). The subsidy costs associated with loan guarantees are reported as loan guarantee liability.


An analysis of loans receivable, loan guarantees, liability for loan guarantees, and the nature and amounts of the subsidy costs associated with the loans and loan
guarantees are provided in the following sections.

The following net loan receivable amounts are not the same as the proceeds that USAID would expect to receive from selling its loans. Actual proceeds may be higher
or lower depending on the borrower and the status of the loan.
AUDITED                                                                                                                     APPENDIX IV
                                                                                                                             Page 36 of 66

USAID FY 2003 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 6. LOANS RECEIVABLE AND LIABILITIES FOR LOAN GUARANTEES
(In Thousands) - Continued
Direct Loans

Direct Loans Obligated Prior to FY 1992 (Allowance for Loss Method)
as of September 30, 2003:
                                                                                                    Allowance     Value of Assets
                                                   Loans Receivables         Interest                   For         Related to
                     Loan Programs                       Gross              Receivable             Loan Losses     Direct loans

      Direct Loans                                 $        8,272,735   $        322,098       $     3,260,015    $     5,334,818
      MSED                                                      1,360                  90                 1,529                (79)
                         Total                     $        8,274,095   $        322,188       $     3,261,544    $     5,334,739

Direct Loans Obligated Prior to FY 1992 (Allowance for Loss Method)
as of September 30, 2002:
                                                                                                    Allowance     Value of Assets
                                                   Loans Receivables         Interest                   For         Related to
                     Loan Programs                       Gross              Receivable             Loan Losses     Direct loans

      Direct Loans                                 $        8,843,329   $        350,800       $     3,428,309    $     5,765,820
      MSED                                                      1,386                 83                 1,838               (369)
                         Total                     $        8,844,715   $        350,883       $     3,430,147    $     5,765,451

Direct Loans Obligated After FY 1991:
as of September 30, 2003:                                                                          Allowance      Value of Assets
                                                   Loans Receivables         Interest          for Subsidy Cost     Related to
                     Loan Programs                       Gross              Receivable          (Present Value)    Direct loans

      Direct Loans                                 $         216,063    $          7,413       $       213,993    $         9,483
      MSED                                                      (908)                 133                   879            (1,654)
                         Total                     $         215,155    $          7,546       $       214,872    $         7,829


Direct Loans Obligated After FY 1991
as of September 30, 2002:                                                                          Allowance      Value of Assets
                                                   Loans Receivables         Interest          for Subsidy Cost     Related to
                     Loan Programs                       Gross              Receivable          (Present Value)    Direct loans

      Direct Loans                                 $         120,667    $                  -   $      186,673     $      (66,006)
      MSED                                                       311                     25                468               (131)
                         Total                     $         120,979    $                25    $      187,141     $      (66,137)
AUDITED                                                                                                                            APPENDIX IV
                                                                                                                                    Page 37 of 66

USAID FY 2003 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 6. LOANS RECEIVABLE AND LIABILITIES FOR LOAN GUARANTEES
(In Thousands) - Continued


Total Amount of Direct Loans Disbursed

                 Direct Loan Programs                 FY 2003                     FY 2002

      Direct Loans                              $         8,488,798         $       8,963,997
      MSED                                                      452                     1,697
                         Total                  $         8,489,250         $       8,965,694



Subsidy Expense for Direct Loans by Program and Component:



      Modifications and Reestimates (FY 2003)

                                                       Total                    Interest Rate            Technical            Total
                 Direct Loan Programs               Modifications               Reestimates             Reestimates        Reestimates

      Direct Loans                              $                       -   $               (49)    $         (169)    $            (218)
                         Total                  $                       -   $               (49)    $         (169)    $            (218)


      Modifications and Reestimates (FY 2002)

                                                       Total                    Interest Rate            Technical            Total
                 Direct Loan Programs               Modifications               Reestimates             Reestimates        Reestimates

      Direct Loans                              $                   -       $                   -   $        (3,618)   $         (3,618)
                         Total                  $                   -       $                   -   $        (3,618)   $         (3,618)



      Total Direct Loan Subsidy Expense

                 Direct Loan Programs                 FY 2003                     FY 2002

      Direct Loans                              $               (218)       $          (3,618)
                         Total                  $               (218)       $          (3,618)
AUDITED                                                                                                                    APPENDIX IV
                                                                                                                            Page 38 of 66

USAID FY 2003 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 6. LOANS RECEIVABLE AND LIABILITIES FOR LOAN GUARANTEES
(In Thousands) - Continued


     Schedule for Reconciling Subsidy Cost Allowance Balances
     (Post-1991 Direct Loans)                                                                  FY 2003

                                                                           Direct Loan         MSED                Total
     Beginning Balance, Changes, and Ending Balance
     Beginning balance of the subsidy cost allowance                   $        186,673    $          468      $     187,141
     Add: subsidy expense for direct loans disbursed during
     the reporting years by component:
          (a) Interest rate differential costs
          (b) Default costs (net of recoveries)
          (c) Fees and other collections
          (d) Other subsidy costs
     Total of the above subsidy expense components
     Adjustments:
          (a) Loan modifications                                       $         25,653                        $       25,653
          (b) Fees received
          (c) Foreclosed property acquired
          (d) Loans written off                                                        -                                     -
          (e) Subsidy allowance amortization                                      3,356                  412            3,768
          (f) Other                                                              (1,690)                               (1,690)
     Ending balance of the subsidy cost allowance before reestimates   $        213,992    $          880      $     214,872
     Add or subtract subsidy reestimates by component:
          (a) Interest rate reestimates
          (b) Technical/default reestimates
     Total of the above reestimates components
     Ending balance of the subsidy cost allowance                      $        213,992    $          880      $     214,872




     Schedule for Reconciling Subsidy Cost Allowance Balances                                  FY 2002
     (Post-1991 Direct Loans)
                                                                           Direct Loan         MSED                Total
     Beginning Balance, Changes, and Ending Balance
     Beginning balance of the subsidy cost allowance                   $        180,622    $          468      $     181,089
     Add: subsidy expense for direct loans disbursed during
     the reporting years by component:
          (a) Interest rate differential costs
          (b) Default costs (net of recoveries)
          (c) Fees and other collections
          (d) Other subsidy costs
     Total of the above subsidy expense components
     Adjustments:
          (a) Loan modifications                                       $           6,627                       $           6,627
          (b) Fees received
          (c) Foreclosed property acquired
          (d) Loans written off                                                  (6,343)                               (6,343)
          (e) Subsidy allowance amortization                                         267                  -                267
          (f) Other                                                               5,500                                 5,500
     Ending balance of the subsidy cost allowance before reestimates   $        186,673    $          468      $     187,141
     Add or subtract subsidy reestimates by component:
          (a) Interest rate reestimate
          (b) Technical/default reestimate
     Total of the above reestimate components
     Ending balance of the subsidy cost allowance                      $        186,673    $          468      $     187,141
AUDITED                                                                                                                             APPENDIX IV
                                                                                                                                     Page 39 of 66

USAID FY 2003 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 6. LOANS RECEIVABLE AND LIABILITIES FOR LOAN GUARANTEES
(In Thousands) - Continued


Defaulted Guaranteed Loans

Defaulted Guaranteed Loans from Pre-1992 Guarantees (Allowance for Loss Method): FY 2003
                                                                                                                            Value of
                                                          Defaulted                                                      Assets Related
                                                         Guaranteed                                    Allowance          to Defaulted
                                                      Loans Receivable,            Interest            For Loan         Guaranteed Loans
               Loan Guarantee Programs                     Gross                  Receivable            Losses           Receivable, Net

      UE                                              $          514,611      $          28,149    $     188,374        $        354,386
                         Total                        $          514,611      $          28,149    $     188,374        $        354,386


Defaulted Guaranteed Loans from Pre-1992 Guarantees (Allowance for Loss Method): FY 2002
                                                                                                                            Value of
                                                          Defaulted                                                      Assets Related
                                                         Guaranteed                                    Allowance          to Defaulted
                                                      Loans Receivable,            Interest            For Loan         Guaranteed Loans
               Loan Guarantee Programs                     Gross                  Receivable            Losses           Receivable, Net

      UE                                              $          442,358      $          70,485    $     214,705        $        298,138
                         Total                        $          442,358      $          70,485    $     214,705        $        298,138



Defaulted Guaranteed Loans from Post-1991 Guarantees

      In FY 2003, the UE Program experienced $7.1 million in defaults on payments.


      In FY 2002, the UE Program experienced $6.5 million in defaults on payments, and the DCA Program experienced $.25 million in defaults
      on payments on post-1991 guaranteed loans.

Guaranteed Loans Outstanding:


      Guaranteed Loans Outstanding (FY 2003):
                                                        Outstanding                Amount of
                                                          Principal,              Outstanding
                                                      Guaranteed Loans,             Principal
               Loan Guarantee Programs                   Face Value               Guaranteed

      UE                                              $        1,954,929      $        1,954,929
      MSED                                                         95,542                 48,492
      Israel                                                  10,789,083              10,789,083
      DCA                                                        549,631                 235,866
                         Total                        $       13,389,185      $      13,028,370
AUDITED                                                                                   APPENDIX IV
                                                                                           Page 40 of 66

USAID FY 2003 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 6. LOANS RECEIVABLE AND LIABILITIES FOR LOAN GUARANTEES
(In Thousands) - Continued


     Guaranteed Loans Outstanding (FY 2002):
                                                   Outstanding             Amount of
                                                     Principal,           Outstanding
                                                 Guaranteed Loans,          Principal
              Loan Guarantee Programs               Face Value            Guaranteed

     UE                                          $       2,093,798    $      2,093,798
     MSED                                                   115,700              58,150
     Israel                                              9,206,027            9,206,027
     DCA                                                   297,620              106,110
     Total                                       $      11,713,145    $     11,464,085



     New Guaranteed Loans Disbursed (FY 2003):
                                                   Outstanding             Amount of
                                                     Principal,           Outstanding
                                                 Guaranteed Loans,          Principal
              Loan Guarantee Programs               Face Value            Guaranteed

     UE                                          $               -    $               -
     MSED                                                     100                   50
     DCA                                                  267,446              133,723
                       Total                     $        267,546     $        133,773



     New Guaranteed Loans Disbursed (FY 2002):
                                                   Outstanding             Amount of
                                                     Principal,           Outstanding
                                                 Guaranteed Loans,          Principal
              Loan Guarantee Programs               Face Value            Guaranteed

     UE                                          $          21,500    $         21,500
     MSED                                                    9,000               4,500
     DCA                                                    38,420              19,210
                       Total                     $          68,920    $         45,210
AUDITED                                                                                                              APPENDIX IV
                                                                                                                      Page 41 of 66

USAID FY 2003 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 6. LOANS RECEIVABLE AND LIABILITIES FOR LOAN GUARANTEES
(In Thousands) - Continued

Liability for Loan Guarantees (Estimated Future Default Claims for pre-1992 guarantees)
as of September 30, 2003:
                                                         Liabilities for
                                                          Losses on            Liabilities for          Total
                                                           Pre-1992         Loan Guarantees           Liabilities
                                                         Guarantees,          for Post-1991              for
                                                      Estimated Future         Guarantees,              Loan
                 Loan Guarantee Programs                Default Claims        Present Value          Guarantees

      UE                                              $         311,383       $      175,521     $       486,904

      MSED                                                              -                 265                 265

      Israel                                                              -          673,261             673,261

      DCA                                                              -              (1,015)              (1,015)
                          Total                       $         311,383       $      848,032     $     1,159,415




Liability for Loan Guarantees (Estimated Future Default Claims for pre-1992 guarantees)
as of September 30, 2002:
                                                         Liabilities for
                                                          Losses on            Liabilities for          Total
                                                           Pre-1992         Loan Guarantees           Liabilities
                                                         Guarantees,          for Post-1991              for
                                                      Estimated Future         Guarantees,              Loan
                 Loan Guarantee Programs                Default Claims        Present Value          Guarantees

      UE                                              $         328,083       $        58,316    $       386,399

      MSED                                                              -                (431)               (431)

      Israel                                                              -          665,267             665,267

      DCA                                                              -              (2,484)              (2,484)
                          Total                       $         328,083       $      720,668     $     1,048,751
AUDITED                                                                                                                                 APPENDIX IV
                                                                                                                                         Page 42 of 66

USAID FY 2003 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 6. LOANS RECEIVABLE AND LIABILITIES FOR LOAN GUARANTEES
(In Thousands) - Continued


Subsidy Expense for Loan Guarantees by Program and Component:

      Subsidy Expense for New Loan Guarantees (FY 2003):


                                                         Interest                                     Fees and
               Loan Guarantee Programs                 Supplements               Defaults          Other Collections            Other              Total

      DCA                                          $                   -   $            2,239      $                 -   $                 -   $           2,239
      MSED                                                             -                3,413                        -                     -               3,413
                         Total                     $                   -   $            5,652      $                 -   $                 -   $           5,652



      Subsidy Expense for New Loan Guarantees (FY 2002):


                                                         Interest                                     Fees and
               Loan Guarantee Programs                 Supplements               Defaults          Other Collections            Other              Total

      UE                                           $                   -   $            1,612       $          (114)     $                 -   $           1,498
      DCA                                                              -                1,124                  (285)                       -                 839
                         Total                     $                   -   $            2,736      $          (399)      $                 -   $           2,337



      Modifications and Reestimates (FY 2003):

                                                          Total                Interest Rate            Technical               Total
               Loan Guarantee Programs                 Modifications           Reestimates             Reestimates           Reestimates

      UE                                           $                   -   $                   -   $        48,211       $          48,211
      MSED                                                                                                   4,163                   4,163
      DCA                                                              -                       -                150                    150
                         Total                     $                   -   $                   -   $        52,524       $         52,524


      Modifications and Reestimates (FY 2002):

                                                          Total                Interest Rate            Technical               Total
               Loan Guarantee Programs                 Modifications           Reestimates             Reestimates           Reestimates

      UE                                           $                   -   $            2,080      $         7,257       $           9,337
      MSED                                                             -               (1,324)                2,078                    754
                         Total                     $                   -   $              756      $         9,335       $         10,091
AUDITED                                                                                                                                       APPENDIX IV
                                                                                                                                               Page 43 of 66

USAID FY 2003 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 6. LOANS RECEIVABLE AND LIABILITIES FOR LOAN GUARANTEES
(In Thousands) - Continued


       Total Loan Guarantee Subsidy Expense:


                 Loan Guarantee Programs                       FY 2003                FY 2002

       DCA                                                $            2,389     $             839
       UE                                                             48,211                10,835
       MSED                                                            7,576                   754
                            Total                         $           58,176     $          12,428



Subsidy Rates for Loan Guarantees by Program and Component:

       Budget Subsidy Rates for Loan Guarantees for the Current Year's Cohorts:
                                                                                                          Fees and
                                                               Interest                                      Other
                 Loan Guarantee Programs                   Supplements (%)           Defaults (%)       Collections (%)             Other (%)              Total (%)

       DCA                                                                   -               3.23%                          -                      -                 3.23%




Schedule for Reconciling Loan Guarantee Liability Balances
(Post-1991 Loan Guarantees)                                                                                 FY 2003

                                                                DCA                    MSED                   UE                     Israel                  Total
        Beginning Balance, Changes, and Ending Balance
Beginning balance of the loan guarantee liability          $          (2,484)    $            (431)    $       58,316           $       665,267        $        720,668
Add: subsidy expense for guaranteed loans
disbursed during the
        reporting years by component:
        (a) Interest supplement costs
        (b) Default costs (net of recoveries)                                -                                          -                                                -
        (c) Fees and other collections
        (d) Other subsidy costs                                          2,239               3,413                      -                                            5,652
Total of the above subsidy expense components              $             2,239   $           3,413     $                -       $                  -   $             5,652
Adjustments:
        (a) Loan guarantee modifications
        (b) Fees received                                                                                       7,464                   117,715                 125,179
        (c) Interest supplements paid                                                                                                                                   -
        (d) Foreclosed property and loans acquired                                                                                                                      -
        (e) Claim payments to lenders                                                        (2,318)           (7,077)                                            (9,395)
        (f) Interest accumulation on the liability balance                                         -            4,693                     44,736                 49,429
        (g) Other                                                          41                (2,595)           63,914                                            61,360
Ending balance of the loan guarantee liability
before reestimates                                         $             (204)   $          (1,931)     $     127,310           $       827,718        $        952,892
Add or subtract subsidy reestimates by component:                                                      `
        (a) Interest rate reestimate                                        -                      -                 -                                                  -
        (b) Technical/default reestimate                                (811)                2,196            48,211                   (154,456)               (104,860)
        Total of the above reestimate components           $            (811)    $           2,196     $      48,211            $      (154,456)       $       (104,860)
Ending balance of the loan guarantee liability             $          (1,015)    $             265     $     175,521            $       673,261        $        848,032
AUDITED                                                                                                                                  APPENDIX IV
                                                                                                                                          Page 44 of 66

USAID FY 2003 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 6. LOANS RECEIVABLE AND LIABILITIES FOR LOAN GUARANTEES
(In Thousands) - Continued


Schedule for Reconciling Loan Guarantee Liability Balances
(Post-1991 Loan Guarantees)                                                                                  FY 2002

                                                                DCA                  MSED                      UE               Israel               Total
        Beginning Balance, Changes, and Ending Balance
Beginning balance of the loan guarantee liability          $              212    $             289       $      74,945      $      626,050       $      701,496
Add: subsidy expense for guaranteed loans
disbursed during the
        reporting years by component:
        (a) Interest supplement costs
        (b) Default costs (net of recoveries)                             839                                       1,499                                    2,338
        (c) Fees and other collections
        (d) Other subsidy costs                                                                                                                                   -
Total of the above subsidy expense components              $              839    $                   -   $       1,499      $                -   $           2,338
Adjustments:
        (a) Loan guarantee modifications
        (b) Fees received                                                                                         2,673                                      2,673
        (c) Interest supplements paid                                                                                                                           -
        (d) Foreclosed property and loans acquired                                                                                                              -
        (e) Claim payments to lenders                                                      (259)                (6,548)                                  (6,807)
        (f) Interest accumulation on the liability balance                                   118                 5,241              39,217               44,576
        (g) Other                                                        (559)            1,008                 (4,405)                                   (3,956)
Ending balance of the loan guarantee liability
before reestimates                                         $              492    $        1,156          $      73,405      $      665,267       $      740,320
Add or subtract subsidy reestimates by component:
        (a) Interest rate reestimate                                  (1,428)              6,280                     504                                  5,356
        (b) Technical/default reestimate                              (1,548)             (7,867)               (15,593)                                (25,008)
        Total of the above reestimate components           $          (2,976)    $       (1,587)         $     (15,089)     $             -      $      (19,652)
Ending balance of the loan guarantee liability             $          (2,484)    $          (431)        $       58,316     $      665,267       $      720,668




Administrative Expense


       Loan Programs                                           FY 2003               FY 2002

       DCA                                                $              8,155   $        3,066
       UE                                                                  448            1,156
       MSED                                                                936            2,482
                            Total                         $              9,539   $        6,704
AUDITED                                                                                                                                    APPENDIX IV
                                                                                                                                            Page 45 of 66

USAID FY 2003 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 6. LOANS RECEIVABLE AND LIABILITIES FOR LOAN GUARANTEES
(In Thousands) - Continued

Other Information


  1   Allowance for Loss for Liquidating account (pre-Credit Reform Act) receivables have been calculated in accordance with OMB guidance using a present value
      method which assigns risk ratings to receivables based upon the country of debtor. Fifteen countries are in violation of Section 620q of the Foreign Assistance
      Act (FAA), owing $28.3 million that is more than six months delinquent. Ten countries are in violation of the Brooke-Alexander Amendment to the Foreign
      Operations Export Financing and Related Programs Appropriations Act, owing $507.2 million that is more than one year delinquent. Outstanding direct loans
      receivable for countries in violation of Section 620q totaled $20.7 million. Outstanding direct loans receivable for countries in violation of the Brooke Amendment
      totaled $466.4 million.




  2   The MSED Liquidating Account general ledger has a loan receivable balance of $1.4 million. This includes two loans pending closure. These loans are being
      carried at 100% bad debt allowance.


  3   The Ukraine program guarantees have expired, and the Ukraine Financing Account was closed out in FY 2002.
AUDITED                                                                                                      APPENDIX IV
                                                                                                              Page 46 of 66



USAID FY 2003 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 7. INVENTORY AND RELATED PROPERTY (In Thousands)



USAID's Inventory and Related Property is comprised of Operating Materials and Supplies. Operating Materials and Supplies as of
September 30, 2003 and 2002 are as follows:


                                                                                 2003                   2002
Items Held for Use


                     Office Supplies                                                     $6,937                 $8,691


Items Held in Reserve for Future Use


                     Disaster assistance materials and supplies                           7,120                  5,909
                     Birth control supplies                                               9,970                  5,641



Total                                                                                   $24,027                $20,241


Operating Materials and Supplies are valued at historical cost and considered not held for sale.
AUDITED                                                                                                            APPENDIX IV
                                                                                                                    Page 47 of 66



USAID FY 2003 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 8. GENERAL PROPERTY, PLANT AND EQUIPMENT, NET (In Thousands)


The components of PP&E at September 30, 2003 were:
                                                                                                 Accumulated               Net Book
                                               Useful Life                 Cost                  Depreciation                Value

Classes of Fixed Assets
   Equipment                                   3 to 5 years                     $42,171                     ($25,004)          $17,167
   Buildings, Improvements,                     20 years                         52,292                       (21,265)          31,027
     & Renovations
   Land and Land Rights                            N/A                            4,181               -                           4,181
   Assets Under Capital Lease                                                     5,311                        (1,117)            4,194
   Construction in Progress                        N/A                             570                -                              570
   Internal Use Software                                                         12,248                        (5,054)            7,194



      Total                                                                   $116,773                      ($52,440)          $64,333


The components of PP&E at September 30, 2002 were:
                                                                                                 Accumulated               Net Book
                                               Useful Life                 Cost                  Depreciation                Value

Classes of Fixed Assets
   Equipment                                   3 to 5 years                     $40,631                     ($27,988)          $12,643
   Buildings, Improvements,                     20 years                         41,557                       (18,671)          22,886
     & Renovations
   Land and Land Rights                            N/A                            4,056               -                           4,056
   Assets Under Capital Lease                                                     7,081                          (958)            6,123
   Construction in Progress                        N/A                    647                         -                            647
   Internal Use Software                         5 years                         10,526                        (2,432)            8,094



      Total                                                                   $104,498                      ($50,049)          $54,449


USAID PP&E includes assets located in Washington, D.C. offices and overseas field missions.




 For FY 2003, USAID capitalization criteria for assets was $25,000 except for internal use software. The capitalization criteria for
internal use software was $300,000. Assets meeting these criteria are depreciated using the half-year straight line depreciation
method.




Equipment consists primarily of electric generators, ADP hardware, vehicles and copiers located at the overseas field missions.
AUDITED                                                                                                         APPENDIX IV
                                                                                                                 Page 48 of 66




USAID FY 2003 FOOTNOTES TO THE FINANCIAL STATEMENTS


NOTE 8. GENERAL PROPERTY, PLANT AND EQUIPMENT, NET (In Thousands) - Continued




Structures and Facilities include USAID owned office buildings and residences at foreign missions, including the land on which
these structures reside. These structures are used and maintained by the field missions. USAID does not separately report the
cost of the building and the land on which the building resides.




Land consists of property owned by USAID in foreign countries. Usually the land is purchased with the intention of constructing an
office building at the site.
AUDITED                                                                                       APPENDIX IV
                                                                                               Page 49 of 66



USAID FY 2003 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 9. LEASES (In Thousands)


Leases as of September 30, 2003 and 2002 consisted of the following:


Entity as Lessee:
    Capital Leases:                                                                 2003              2002
   Summary of Assets Under Capital Lease:
      Buildings                                                     $      5,311                  $      7,081
      Accumulated Depreciation                                      $      1,117                  $          958


   Future Payments Due:


                            Fiscal Year                                        Future Costs       Future Costs
                                 2003                                           -                        1,185
                                 2004                                        912                             567
                                 2005                                        426                             144
                                 2006                                        222                               -
                                 2007                                        192                               -
                                 2008                                           -                              -
                           After 5 Years                                        -                              -
   Net Capital Lease Liability                                             1,752                         1,896


   Lease Liabilities Covered by Budgetary Resources                        1,752                         1,896
   Lease Liabilities Not Covered by Budgetary Resources                         -                              -


The capital lease liability is reported on USAID's Balance Sheet under Other Liabilities.


    Operating Leases:                                                               2003              2002


   Future Payments Due:


                            Fiscal Year                                        Future Costs       Future Costs
                                 2003                                           -                      70,470
                                 2004                                     72,452                       66,525
                                 2005                                     70,968                       64,486
                                 2006                                     68,755                       59,155
                                 2007                                     68,022                       58,091
                                 2008                                     67,496                               -
      After 5 Years                                                      344,031                      254,747
      Total Future Lease Payments                                        691,724                      573,474
AUDITED                                                                                             APPENDIX IV
                                                                                                     Page 50 of 66

USAID FY 2003 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 9. LEASES (In Thousands) - Continued

Of the $691 million in future lease payments, $ 527 million is attributable to the Ronald Reagan Building in Washington
D.C., USAID’s headquarters. This building is leased by the General Services Administration (GSA). USAID is charged
rent intended to approximate commercial rental rates. Lease payments for FY 2003 and 2002 amounted to $36 million
and $33 million respectively. An approximate increase of 9.8% will take effect in FY 2004. The remaining $128 million
relates to other USAID Washington activity and mission related operating leases.
AUDITED                                                                                                              APPENDIX IV
                                                                                                                      Page 51 of 66



USAID FY 2003 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 10. ACCOUNTS PAYABLE (In Thousands)




The Accounts Payable covered by budgetary resources as of September 30, 2003 and 2002 consisted of the following:


                                                                            2003                2002
Intragovernmental


   Accounts Payable                                                                $27,299                $69,572
   Disbursements in Transit                                                   -                  -

Total Intragovernmental                                                             27,299                 69,572




   Accounts Payable                                                               1,842,778              1,101,961
   Disbursements in Transit                                                   -                      -



Total Accounts Payable                                                        $1,870,077             $1,171,533




Intragovernmental Accounts Payable are those payable to other federal agencies and consist mainly of unliquidated obligation
balances related to interagency agreements between USAID and other federal agencies.


All other Accounts Payable represent liabilities to other non-federal entities.
AUDITED                                                                                                            APPENDIX IV
                                                                                                                    Page 52 of 66



USAID FY 2003 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 11. DEBT (In Thousands)




USAID Intragovernmental debt as of September 30, 2003 and 2002 consisted of the following borrowings from Treasury for post-
1991 loan programs, which is classified as other debt:


                                        2002                                         2002                                    2003
                                      Beginning               Net                   Ending              Net                 Ending
                                      Balance              Borrowing                Balance          Borrowing              Balance
Urban & Environmental             $       -            $         -              $        -       $         -            $           -
Direct Loan                                   62,815                 (47,255)           15,560                 62,421          77,981
MSED                                           1,713                   (529)             1,184                     0             1,184

Total Debt                                $64,528            $       (47,784)          $16,744         $       62,421         $79,165




Pursuant to the Credit Reform Act of 1990, agencies with credit programs have permanent indefinite authority to borrow funds from
the Treasury. These funds are used to disburse new direct loans to the public and, in certain situations, to cover credit reform
program costs. Liquidating (pre-1992) accounts have permanent indefinite borrowing authority to be used to cover program costs
when they exceed account resources. UE Program debt includes amounts borrowed before the effective date of the Credit Reform
Act of 1990.




The above disclosed debt is principal payable to Treasury, which represents financing account borrowings from the Treasury under
the Credit Reform Act. In addition, there is net liquidating account equity in the amount of $5.7 billion, which under the Credit
Reform Act is required to be recorded as Due to Treasury. Both of these accounts are used exclusively for credit reform activity. All
debt shown is intragovernmental debt.
AUDITED                                                                                                            APPENDIX IV
                                                                                                                    Page 53 of 66



USAID FY 2003 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 12. OTHER LIABILITIES (In Thousands)


As of September 30, 2003 and 2002 Other Liabilities consisted of the following:


Intragovernmental                                                                         2003                2002


   OPAC Suspense                                                                                     -          ($2,901)
   Deposit and Clearing Accounts                                                                     -             2,030
   Unfunded FECA Liability                                                                       6,417             6,421
   Other                                                                                         8,426            44,703

Total Intragovernmental                                                                       14,843              50,253


   Accrued Funded Payroll/Benefits                                                               6,329             4,841
   Deferred Credit                                                                               4,305             1,692


   Liability for Deposit Funds and Suspense Accounts – Non-Entity                                9,176             3,044
   Foreign Currency Trust Fund                                                               240,222             262,038
   Trust Fund Balances                                                                        23,106              17,424
   Unfunded Leave                                                                             28,714              26,696
   Capital Lease Liability                                                                       1,981             1,896
   Other                                                                                     197,424                    4



Total Other Liabilities                                                                     $526,100           $367,888




All liabilities are current. Intragovernmental Liabilities represent amounts due to other federal agencies. All remaining Other
Liabilities are liabilities to non-federal entities.
AUDITED                                                                                                       APPENDIX IV
                                                                                                               Page 54 of 66



USAID FY 2003 FOOTNOTES TO THE FINANCIAL STATEMENTS


NOTE 13. ACCRUED UNFUNDED ANNUAL LEAVE AND SEPARATION PAY (In Thousands)




Accrued unfunded benefits for annual leave and separation pay as of September 30, 2003 and 2002 are:


                                                                                  2003                 2002
Liabilities Not Covered by Budgetary Resources


   Accrued Annual Leave                                                              $28,409             $26,291
   FSN Separation Pay Liability                                                          305                   405


Total Accrued Unfunded Annual Leave and Separation Pay                               $28,714             $26,696
AUDITED                                                                                                           APPENDIX IV
                                                                                                                   Page 55 of 66



USAID FY 2003 FOOTNOTES TO THE FINANCIAL STATEMENTS



NOTE 14. ACCRUED UNFUNDED WORKERS’ COMPENSATION BENEFITS (In Thousands)




The provision for workers’ compensation benefits payable, as of September 30, 2003 and 2002 are as follows:


                                                                                                  2003           2002
Liabilities Not Covered by Budgetary Resources


   Accrued Unfunded Workers' Compensation                                                           $6,417        $6,421
   Future Workers' Compensation Benefits                                                            27,400        28,251

Total Accrued Unfunded Workers Compensation Benefits                                               $33,817       $34,672




The Federal Employees Compensation Act (FECA) program is administered by the U.S. Department of Labor (DOL) and provides
income and medical cost protection to covered Federal civilian employees who have been injured on the job or have incurred a
work-related occupational disease. Compensation is given to beneficiaries of employees whose death is attributable to a job-related
injury or occupational disease. DOL initially pays valid FECA claims for all Federal government agencies and seeks reimbursement
two fiscal years later from the Federal agencies employing the claimants.



USAID’s total FECA liability is $33.8 million as of September 30, 2003 and comprises of unpaid FECA billings for $6.4 million and
estimated future FECA costs of $27.4 million.



For FY 2002, USAID’s total FECA liability was $34.7 million and comprised of unpaid FECA billings for $6.4 million and estimated
future FECA costs of $28.3 million.




Estimated future FECA costs are determined by the Department of Labor. This liability is determined using a paid losses
extrapolation method calculated over a 37 year period. This method utilizes historical benefit payment patterns related to a specific
incurred period to predict the ultimate payments related to that period. These annual benefit payments have been discounted to
present value. The interest rate assumptions used for discounting were 5.50% in year 1 and year 2, 5.55% in year 3, and 5.60% in
year 4 and thereafter.



The decrease of $851 million for Future Workers’ Compensation Benefits is shown as a financing source yet to be provided on the
Statement of Financing.
AUDITED                                                                                                           APPENDIX IV
                                                                                                                   Page 56 of 66



USAID FY 2003 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 15. COMMITMENTS AND CONTINGENCIES




USAID is involved in certain claims, suits, and complaints that have been filed or are pending. These matters are in the ordinary
course of the Agency’s operations and are not expected to have a material adverse effect on the Agency’s financial operations.




USAID is involved in a group of cases before the US Court of Federal Claims which disputes appropriate indirect cost rates to be
charged where contract rates do not match Negotiated Indirect Cost Rate Agreement (NICRA) rates. It is reasonably possible that
USAID might lose this case. Any adverse judgment would likely be paid out of the Department of Treasury’s Judgment Fund, but
then be reimbursed by the Agency. In this case the amounts claimed are $2.2 million, exclusive of Equal Access to Justice Fees.
To date, discovery has officially concluded on one of the cases in this group. Agreement was not reached during settlement
discussions, and dispositive motions were filed by both parties. The Court entered summary judgment in favor of the Government.
The plaintiff appealed the judgment to the Federal Circuit Court of Appeals.




In addition to the $2.2 Million in amounts claimed, the government may incur Equal Access to Justice Fees, which are estimated to
be in the $500,000 range.
AUDITED                                                                                                 APPENDIX IV
                                                                                                         Page 57 of 66



USAID FY 2003 FOOTNOTES TO THE FINANCIAL STATEMENTS



NOTE 16. LIABILITIES NOT COVERED BY BUDGETARY RESOURCES (In Thousands)




Liabilities not covered by budgetary resources as of September 30, 2003 and 2002 are as follows:


                                                                                      2003                        2002


   Contingent Liabilities for Loan Guarantees                                                       $311,383     $328,083
   Accrued Unfunded Annual Leave and Separation Pay                                                   28,714       26,696
   Accrued Unfunded Workers Compensation Benefits                                                     33,817       34,672

Total Liabilities not covered by Budgetary Resources                                                 373,914      389,451
Total Liabilities covered by Budgetary Resources                                                    8,957,967    8,102,890

Total Liabilities                                                                                  $9,331,882   $8,492,342




All liabilities not covered by Budgetary Resources are non-federal liabilities.
AUDITED                                                                                                                                                                APPENDIX IV
                                                                                                                                                                        Page 58 of 66

USAID FY 2003 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 17. SCHEDULE OF COSTS BY RESPONSIBILITY SEGMENTS (in thousands)
                                                                  Asia & Near    Europe &      Latin America                                                       Intra-Agency
                                                      Africa         East         Eurasia       & Caribbean     Global Health         DCHA             EGAT        Eliminations         Total
Goal   Broad-Based Economic Growth and Agricultural
  1:   Development
       Intragovernmental                                11,257         83,365        43,489            3,567                -           38,480           35,575            (1,094)       214,639

       With the Public                                 344,810      2,375,094       365,825          236,559                -          106,821          140,065    -                   3,569,174
           Total                                       356,067      2,458,459       409,314          240,126                -          145,301          175,640            (1,094)     3,783,813
       Less earned revenues                             (1,060)        (7,961)      (46,320)           1,641                -           (3,507)         (25,330)            1,349       (81,188)
       Net Program Costs                               355,007      2,450,498       362,994          241,767                -          141,794          150,310               255      3,702,625
Goal   Human Capacity Built Through Education and
  2:   Training
       Intragovernmental                                 7,864          2,322         2,685            5,095                -                789          5,580             (123)         24,212

       With the Public                                 155,494         67,683         6,883           29,700                -           16,573           31,464    -                     307,797
           Total                                       163,358         70,005         9,568           34,795                -           17,362           37,044             (123)        332,009
       Less earned revenues                              (251)            (73)          (84)           (160)                -              (26)           (177)                13          (758)
       Net Program Costs                               163,107         69,932         9,484           34,635                -           17,336           36,867             (110)        331,251
Goal   Protect the Environment for Long-Term
  3:   Sustainability
       Intragovernmental                                 5,038          2,613         9,701            4,185                -            7,215           90,420             (604)        118,568

       With the Public                                  82,056        390,063        88,096                                 -           11,378          106,390    -                     677,983
           Total                                        87,094        392,676        97,797            4,185                -           18,593          196,810             (604)        796,551
       Less earned revenues                               (268)         (286)         (305)             (132)               -            (225)          (98,369)            1,627       (97,958)
       Net Program Costs                                86,826        392,390        97,492            4,053                -           18,368           98,441             1,023        698,593
Goal   Stabilizing World Population and Protecting
  4:   Human Health

       Intragovernmental                                53,912         23,141         8,777           26,164             60,930   -                -                        (877)        172,047

       With the Public                                 474,222        357,955        98,364          161,187           904,834    -                -               -                 1,996,562

           Total                                       528,134        381,096       107,141          187,351           965,764    -                -                        (877)      2,168,609

       Less earned revenues                             (1,701)         (735)         (277)             (820)           (1,999)   -                -                           90        (5,442)

       Net Program Costs                               526,433        380,361       106,864          186,531           963,765    -                -                        (787)      2,163,167
Goal
       Strengthen Democracy and Good Governance
  5:
       Intragovernmental                                 5,713          1,238         6,376            3,785                -            5,987            4,467             (140)         27,426

       With the Public                                 162,527        182,576       325,621          155,907                -          106,704           12,476    -                     945,811
           Total                                       168,240        183,814       331,997          159,692                -          112,691           16,943             (140)        973,237
AUDITED                                                                                                                                                                APPENDIX IV
                                                                                                                                                                        Page 58 of 66

       Less earned revenues                                 (181)            (41)             (204)             (121)       -             (199)            (140)               15      (871)
       Net Program Costs                                  168,059        183,773            331,793           159,571       -           112,492           16,803            (125)    972,366
Goal
       Lives Saved through Humanitarian Assistance
  6:

       Intragovernmental                                        7            9,145            2,984             4,635       -               39,580   -                      (286)       56,065

       With the Public                                     16,037        183,467             64,212           115,601       -         1,633,517      -             -                2,012,834

           Total                                           16,044        192,612             67,196           120,236       -         1,673,097      -                      (286)   2,068,899

       Less earned revenues                          -               (295)           (94)             (147)                 -     (1,300)            -             30                   (1,806)

       Net Program Costs                                   16,044        192,317             67,102           120,089       -         1,671,797      -                      (256)   2,067,093

Net Costs of Operations                                  1,315,476      3,669,271           975,729           746,646   963,765       1,961,787          302,421   -                9,935,095
AUDITED                                                                                                         APPENDIX IV
                                                                                                                 Page 58 of 66

USAID FY 2003 FOOTNOTES TO THE FINANCIAL STATEMENTS


NOTE 18. TOTAL COST AND EARNED REVENUE BY BUDGET FUNCTIONAL CLASSIFICATION (In Thousands)




Total Cost and Earned Revenue by Budget Functional Classification, as of September 30, 2003 are as follows:




                                                                                                   Earned
                          Function Classification                              Gross Cost         Revenue           Net Cost



International Development and Humanitarian Assistance- 151                        $6,700,489       ($188,023)        $6,512,466
International Security Assistance- 152                                             3,434,912             -            3,434,912
Conduct of Foreign Affairs- 153                                                       45,200             -               45,200
Federal Employee Retirement and Disability- 602                                       987                -                 987

Total                                                                           $10,181,588        ($188,023)        $9,993,565




Total Cost and Earned Revenue by Budget Functional Classification, as of September 30, 2002 are as follows:



                                                                                                   Earned
                          Function Classification                              Gross Cost         Revenue           Net Cost



International Development and Humanitarian Assistance- 151                        $5,176,694        ($81,359)        $5,095,335
International Security Assistance- 152                                             2,935,308        (158,914)         2,776,394
Conduct of Foreign Affairs- 153                                                       44,880             -               44,880
Federal Employee Retirement and Disability- 602                                          750             -                 750

Total                                                                             $8,157,632       ($240,273)        $7,917,359
AUDITED                                                                                                        APPENDIX IV
                                                                                                                Page 60 of 66

USAID FY 2003 FOOTNOTES TO THE FINANCIAL STATEMENTS



NOTE 18. TOTAL COST AND EARNED REVENUE BY BUDGET FUNCTIONAL CLASSIFICATION (In Thousands) - Continued




Intragovernmental Cost and Earned Revenue by Budget Functional Classification, as of September 30, 2003 are as follows:




                                                                                                  Earned
                          Function Classification                             Gross Cost         Revenue           Net Cost



International Development and Humanitarian Assistance- 151                         $496,708        ($17,452)          $479,256
International Security Assistance- 152                                               28,972             -                 28,972
Conduct of Foreign Affairs- 153                                                      45,200             -                 45,200
Federal Employee Retirement and Disability- 602                                        -                -                  -

Total                                                                              $570,880        ($17,452)          $553,428




Intragovernmental Cost and Earned Revenue by Budget Functional Classification, as of September 30, 2002 are as follows:



                                                                                                  Earned
                          Function Classification                             Gross Cost         Revenue           Net Cost



International Development and Humanitarian Assistance- 151                         $381,943        ($63,762)          $318,180
International Security Assistance- 152                                               34,196        (152,988)         (118,792)
Conduct of Foreign Affairs- 153                                                      44,880             -                 44,880
Federal Employee Retirement and Disability- 602                                        -                -                  -

Total                                                                              $461,019       ($216,750)          $244,269
AUDITED                                                                                                          APPENDIX IV
                                                                                                                  Page 61 of 66



USAID FY 2003 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 19. PRIOR PERIOD ADJUSTMENTS



USAID recorded one prior period adjustment during FY 2003. This adjustment, in the amount
of $1,689,951.00, was to adjust the allowance for subsidy for prior year amortization of the
reestimate interest expense in the Direct Loan Financing fund (Enterprise for the Americas Initiative
Debt Restructuring Financing).


Two prior period adjustments were made in FY 2002.




The Department of Treasury advised USAID and the Department of Agriculture on new guidelines for recording transfers from the
Department of Agriculture's Commodity Credit Corporation. Since the transfer of funds is not a transfer of appropriated funds, the
Unexpended Appropriation Net Position account 3100 should not be used. An adjustment of $483,707,031.18 for changes in
accounting principles was made to reduce the Unexpended Appropriation balance via posting to account 3109 Unexpended
Appropriations - Prior Year Adjustments and to account 7400 Prior Period Adjustment - Not Restated. This adjustment does not
have an effect on the Agency's net position.




A credit adjustment of $190,041.25 was made during FY 2002 to the Micro and Small Enterprise Development financing fund to
correct an equity posting error that occurred in FY 2001. This adjustment does not have a material effect on the Agency's net
position.
AUDITED                                                                                                           APPENDIX IV
                                                                                                                   Page 62 of 66


USAID FY 2003 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 20. STATEMENT OF BUDGETARY RESOURCES

A. Apportionment Categories of Obligations Incurred:

                                                                                         2003                  2002
Category A, Direct                                                                  $   1,371,774       $       631,168
Category B, Direct                                                                      8,534,809                8,279,671

Category A, Reimbursable                                                                  10,065                    7,301
Category B, Reimbursable                                                                 171,039                  168,589
Total                                                                               $ 10,087,687               $9,086,729

B. Borrowing Authority, End of Period and Terms of Borrowing
Authority Used:

For credit financing activities, borrowing authority for FY 2003 was $62,886 thousand and for FY 2002, $465 thousand.

Borrowing Authority is indefinite and authorized under the Credit Reform Act of 1990 (P.L. 101-508), and is used to
finance obligations during the current year, as needed.

C. Adjustments to Beginning Balance of Budgetary Resources:
A difference exists between FY 02 ending and FY 03 beginning balances for Total Obligations. The FY 2003 beginning
obligated balance was increased by $519 thousand based on periodic reviews.

D. Permanent Indefinite Appropriations:
USAID has permanent indefinite appropriations relating to specific Credit Reform Program and Liquidating
appropriations. USAID is authorized permanent indefinite authority for Credit Reform Program appropriations for
subsidy reestimates, and Credit Reform Liquidating appropriations for potential claims in excess of funds availability.
Both are authorized under the Credit Reform Act of 1990.

E. Legal Arrangements Affecting the Use of Unobligated Balances:
Pursuant to Section 511 of PL 107-115 funds shall remain available until expended if such funds are initially obligated
before the expiration of their periods of availability. Any subsequent recoveries (deobligations) of these funds become
unobligated balances that are available for reprogramming by USAID (subject to OMB approval through the
apportionment process).
AUDITED                                                                                                         APPENDIX IV
                                                                                                                 Page 63 of 66



USAID FY 2003 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 21. STATEMENT OF FINANCING - OTHER

Explanation of the Relationship Between Liabilities Not Covered by Budgetary Resources on the Balance Sheet and the
Change in Components Requiring or Generating Resources in Future Periods


A portion of net increase in contingent liabilities for loan guarantees from FY 2003 includes the $98.2 for credit subsidy expense
reestimates requiring resources in future periods which is shown on the Statement of Financing. Accrued Unfunded Annual leave
on the balance sheet is shown as a cumulative balance, with the current period changes of $2.2 million. This increase is shown on
the Statement of Financing as a change in components requiring resources in future periods.



Description of Transfers that Appear as a Reconciling Item on the Statement of Financing




Appropriations that are transferred from other Federal Agencies to USAID are not shown on the Statement of Budgetary Resources,
but are shown on the Balance Sheet and Statement of Net Costs. Appropriations that are transferred to other agencies are shown
on the Statement of Budgetary Resources, but are not shown on the Balance Sheet nor the Statement of Net Costs. Below is a
reconciliation of obligations and spending authority from offsetting collections between the Statement of Budgetary Resources and
the Statement of Financing.


Obligations Incurred, Statement of Budgetary Resources                                                                  10,087,687


       Less: Transfers to Other Agencies
               Department of State                                                         (437,630)
               Department of Treasury                                                      (999,000)
               Nuclear Regulatory Commission                                                 (1,634)
               Others                                                                        (1,719)                    (1,439,983)


       Add: Transfers from Other Agencies
               Department of State                                                          218,173
               Department of Agriculture                                                  1,185,126
               Executive Office of the President                                          1,477,089
               Others                                                                            207                     2,880,595


Obligations Incurred, Statement of Financing                                                                            11,528,299
AUDITED                                                               APPENDIX IV
                                                                       Page 64 of 66

USAID FY 2003 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 21. STATEMENT OF FINANCING - OTHER




Spending Authority from Offsetting Collections Per
Statement of Budgetary Resources                                            1,279,197


       Less: Transfers to Other Agencies
               Department of State                          (4,217)
               Nuclear Regulatory Commission                   (69)           (4,286)



       Add: Allocations from Other Agencies
               Department of State                    262
               Department of Agriculture                    56,985             57,247




Spending Authority from Offsetting Collections Per
Statement of Financing                                                      1,332,158
AUDITED                                                                                                                                                                                             APPENDIX IV
                                                                                                                                                                                                    Page 65 of 66

                                         U.S. Agency for International Development
                      REQUIRED SUPPLEMENTARY INFORMATION: STATEMENT OF BUDGETARY RESOURCES
                                                 As of September 30, 2003
                                                       (in thousands)
                                                                                                                                                                      Credit -                      Allocations
                                                                                                                                                   Operatin                           Other                              Consolidate
                                                                                           Program Funds                                                              Financin                       to Other
                                                                                                                                                    g Fund                            Funds                                d Total
                                                                                                                                                                         g                           Agencies

                                                  1010           1021          1035             1037         1093            1095       1096            1000

                          Budget Authority        368,431      1,481,678       433,801        3,429,136       420,918       1,830,840          -        595,471               -        365,268                   -         8,925,543

Unobligated Balances - Beginning of Period        109,457        146,909        53,927          658,990       247,225         68,519      277            35,353         62,886         155,087           1,438,832         2,977,462
       Spending Authority from Offsetting
                               Collections               -         5,001               -                 -              -           -          -          5,265        798,979         876,084            114,837          1,800,166

     Recoveries of Prior-Year Obligations          10,005         26,691        11,261            7,552        22,153          4,520      449            19,800        219,871             52,079             202            374,583
    Temporarily Not Available Pursuant to
                              Public Law                 -               -             -                 -              -           -          -               -        14,180                  -           4,084             18,264

                 Permanently Not Available         (3,441)       (9,117)        (1,885)         (14,930)      (5,372)        (11,937)          -        (3,951)               -       (661,392)                  -         (712,025)

                Total Budgetary Resources         484,452      1,651,162       497,104        4,080,748       684,924       1,891,942     726           651,938       1,095,916        787,126           1,557,955        13,383,993
          Status of Budgetary Resources:

                       Obligations Incurred       391,647      1,448,271       456,241        3,009,088       489,880       1,747,553          -        625,866               -        365,326                   -         8,533,872

          Unobligated Balances - Available         91,603        200,589        40,863        1,070,856       194,410        144,389      726            24,924        113,832         420,714           1,439,983         3,742,889

       Unobligated Balances - Unavailable           1,202          2,302               -               804       634                -          -          1,148        981,619              1,086         (16,192)           972,603

   Total, Status of Budgetary Resources      484,452    1,651,162              497,104        4,080,748       684,924       1,891,942     726           651,938       1,095,451        787,126           1,423,791        13,249,364
       Relationship of Obligations to
                             Outlays:
  Obligated Balance, Net, Beginning of
                               Period   574,033      2,306,543               328,383       3,256,802         624,347        1,683,628      112,665                 167,654             -      133,315                -                 9,187,370

   Obligated Balance, Transferred, Net              -                -             -               -                -               -               -                    -        26,868        1,819       244,370                     273,057

 Obligated Balance, Net, End of Period        527,856        2,506,374       409,634       2,933,916         565,322        1,996,750          90,230              160,842             -       83,600                -                 9,274,524
     Outlays:
                                                                                                             526,581                           21,987              616,527
Disbursements                                 427,818        1,222,806       363,728       3,324,424                        1,431,260                                                  -      364,773                -                 8,299,904
                                                                                                                    -                               -              (8,914)
   Collections                                      -          (6,058)             -               -                          (1,350)                                            113,597     (876,085)      380,995                    (397,815)
             Less: Offsetting Receipts                                                                              -                               -                    -                                                             (208,687)
AUDITED                                                                                                                                                                   APPENDIX IV
                                                                                                                                                                          Page 65 of 66

                                                -               -          -           -                                    -                         (208,543)           -      (144)

 Net Outlays                             427,818       1,216,748     363,728   3,324,424          526,581      1,429,910           21,987   607,613    322,140    (511,312)    381,139               8,110,776
                                                                                                                                                      OTHER FUNDS
  MAJOR FUNDS                                                       OTHER FUNDS                                                                       (cont'd)
                                                                                                                                                       Credit Program
    Program Fund                                                    Operating Funds                                                                   Funds

                                                                                                   Capital
               Special Assistance                                                                  Investment                                                                                   MSED
       1010    Initiatives                                                                 0300    Fund                                                                                  0400   Program Fund
                                                                                                   Operating Expenses
               Development                                                                         of USAID Inspector                                                                           UE Program
       1021    Assistance                                                                  1007    General                                                                               0401   Fund
                                                                                                   Foreign Service
               International Disaster                                                              Retirement and                                                                               Ukraine
       1035    Assistance                                                                  1036    Disability Fund                                                                       0402   Program Fund
               Economic Support                                                                                                                                                                 DCA Program
       1037    Fund                                                                                                                                                                      1264   Fund
                                                                                                                                                                                                Economic
                                                                                                                                                                                                Assistance
                                                                                                                                                                                                Loans -
               Assistance for the N.I.S. Of The Former Soviet                                                                                                                                   Liquidating
       1093    Union                                                 Program Funds                                                                                                       4103   Fund
                                                                                                                                                                                                UE Guarantee
                                                                                                                                                                                                Liquidating
       1095    Child Survival and Disease Programs Funds                                                                                                                                 4340   Fund
                                                                                                                                                                                                MSED Direct
                                                                                                                                                                                                Loan
                                                                                                                                                                                                Liquidating
       1096    Latin American/Caribbean Disaster Recovery                                  1012    Sahel Development Program                                                             4341   Fund
                                                                                                                                                                                                Israel Admin
                                                                                           1014    Africa Development Assistance                                                         5318   Expense Fund
                                                                                                   Food and Nutrition
                                                                                                   Development
    Operating Fund                                                                         1023    Assistance
                                                                                                   Population and
                                                                                                   Planning & Health
                                                                                           1024    Dev. Asst.                                           Revolving Funds
                                                                                                   Education and
                                                                                                   Human Resources,
       1000    Operating Expenses of USAID                                                 1025    Dev. Asst.
                                                                                                                                                                                                Property
                                                                                                                                                                                                Management
                                                                                           1027    Transition Initiatives                                                                4175   Fund
                                                                                                                                                                                                Working
   Credit-Financing Funds                                                                  1028    Global Fund to Fight HIV / AIDS                                                       4513   Capital Fund
                                                                                                   Central American                                                                             Acquisition of
                                                                                           1038    Reconciliation                                                                        4590   Property,
AUDITED                                                                                               APPENDIX IV
                                                                                                      Page 65 of 66

                                                                   Assistance                                           Revolving
                                                                                                                        Fund
                                                                   Sub-Saharan Africa
     4119   Israel Guarantee Financing Fund                 1040   Disaster Assistance
                                                                   Demobilization and     ALLOCATIONS TO OTHER
     4137   Direct Loan Financing Fund                      1500   Transition Fund        AGENCIES
                                                                                                                        Operating
                                                                                                                        Expenses of
     4266   DCA Financing Fund                                                                                   1000   USAID
                                                                                                                        Special
                                                                                                                        Assistance
     4342   MSED Direct Loan Financing Fund   Trust Funds                                                        1010   Initiatives
                                                                                                                        Africa
                                                                                                                        Development
     4343   MSED Guarantee Financing Fund                                                                        1014   Assistance
                                                                   Foreign Natl.
                                                                   Employees
                                                                   Separation Liability                                 Development
     4344   UE Financing Fund                               8342   Fund                                          1021   Assistance
                                                                   Tech. Assist. - U.S.
                                                                   Dollars Advance                                      Transition
     4345   Ukraine Financing Fund                          8502   from Foreign                                  1027   Initiatives
                                                                                                                        Peacekeeping
                                                            8824   Gifts and Donations                           1032   Operations
                                                                                                                        International
                                                                                                                        Disaster
                                                                                                                 1035   Assistance
                                                                                                                        Economic
                                                                                                                 1037   Support Fund
                                                                                                                        Assistance for
                                                                                                                        the N.I.S. Of
                                                                                                                        The Former
                                                                                                                 1093   Soviet Union
                                                                                                                        Child Survival
                                                                                                                        and Disease
                                                                                                                        Programs
                                                                                                                 1095   Funds
                                                                                                                        Demobilization
                                                                                                                        and Transition
                                                                                                                 1500   Fund
AUDITED                                                                                                                                                       APPENDIX IV
                                                                                                                                                               Page 66 of 66

                                         U.S. Agency for International Development
                        REQUIRED SUPPLEMENTARY INFORMATION: INTRAGOVERNMENTAL AMOUNTS
                                                 As of September 30, 2003
                                                       (in thousands)


Intragovernmental assets:




                                                          Fund Balance with           Accounts                 Advances and
                              Agency                          Treasury              Receivable, Net            Prepayments                  Totals
        Treasury                                                   14,215,414                 -            $          5,415                   14,220,829
        Dept of Agriculture                                           -                      1,133,865                         2,235           1,136,100
        Dept of Commerce                                              -                       -                                6,157                  6,157
        Dept of State                                                 -                       -                               16,639                 16,639
        Other                                                         -                             209                        2,552                  2,761
                               Total                               14,215,414                1,134,074                        32,998          15,382,486



Intragovernmental liabilities:



                              Agency                        Due to Treasury       Accounts Payable                 Debt                     Other                 Totals
        Treasury                                                    5,669,725                      1,639                      79,165                  4,096          5,754,625
        GSA                                                                   -                    5,757                  -                      -                         5,757
        Dept of Agriculture                                                   -                    8,385                  -                      -                         8,385
        Dept of Labor                                                         -               -                           -                           6,417                6,417
        Dept of Health and Human Services                             -                            2,463                  -                      -                         2,463
        Other                                                                 -                    9,055                  -                           4,330            13,385
                               Total                                5,669,725                     27,299                      79,165                 14,843          5,791,032


Intragovernmental earned revenues and related costs;


USAID's intragovernmental earned revenues are not greater than $500 million. As such, intragovernmental earned revenues and related costs
by trading partner are not required to be reported.
